<html>
<title> - EAST TIMOR: A NEW BEGINNING?</title>
<body><pre>[Joint House and Senate Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
                      EAST TIMOR: A NEW BEGINNING?

=======================================================================

                             JOINT HEARING

                               before the

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 of the

                  COMMITTEE ON INTERNATIONAL RELATIONS

                        HOUSE OF REPRESENTATIVES

                                and the

             SUBCOMMITTEE ON EAST ASIAN AND PACIFIC AFFAIRS

                                 of the

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 10, 2000

                               __________

                  Committee on International Relations

                           Serial No. 106-98

                     Committee on Foreign Relations

                               __________

Printed for the use of the Committee on International Relations and the 
                     Committee on Foreign Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
<67-455 CC                  WASHINGTON : 2000



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado

                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                  Subcommittee on Asia and the Pacific

                   DOUG BEREUTER, Nebraska, Chairman
JAMES A. LEACH, Iowa                 TOM LANTOS, California
DANA ROHRABACHER, California         HOWARD L. BERMAN, California
PETER T. KING, New York              ENI F.H. FALEOMAVAEGA, American 
MARSHALL ``MARK'' SANFORD, South         Samoa
    Carolina                         MATTHEW G. MARTINEZ, California
MATT SALMON, Arizona                 SHERROD BROWN, Ohio
JOHN McHUGH, New York                ROBERT WEXLER, Florida
RICHARD BURR, North Carolina         JIM DAVIS, Florida
PAUL GILLMOR, Ohio                   EARL POMEROY, North Dakota
DONALD A. MANZULLO, Illinois         GARY L. ACKERMAN, New York
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
JOHN COOKSEY, Louisiana

             Michael P. Ennis, Subcommittee Staff Director
         Dr. Robert King, Democratic Professional Staff Member
                         Matt Reynolds, Counsel
                  Alicia A. O'Donnell, Staff Associate
                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island

                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director
                                 ------                                

             Subcommittee on East Asian and Pacific Affairs

                    CRAIG THOMAS, Wyoming, Chairman
JESSE HELMS, North Carolina          JOHN F. KERRY, Massachusetts
CHUCK HAGEL, Nebraska                RUSSELL D. FEINGOLD, Wisconsin
GORDON H. SMITH, Oregon              PAUL D. WELLSTONE, Minnesota
LINCOLN D. CHAFEE, Rhode Island      ROBERT G. TORRICELLI, New Jersey



                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

The Honorable Stanley Roth, Assistant Secretary for East Asian 
  and Pacific Affairs, U.S. Department of State..................     6
The Honorable C. David Welch, Assistant Secretary for 
  International Organization Affairs, U.S. Department of State...    13
Mr. Charles Costello, Director for Democracy Programs, The Carter 
  Center.........................................................    29
Dr. Andrew MacIntyre, Associate Dean, Graduate School on 
  International Relations and Pacific Studies, University of 
  California, San Diego..........................................    30

                                APPENDIX

Prepared statements:

The Honorable Craig Thomas, a U.S. Senator from Wyoming..........    40
The Honorable Doug Bereuter, a Representative in Congress from 
  Nebraska.......................................................    42
.................................................................
The Honorable Tom Lantos, a Representative in Congress from 
  California.....................................................    45
The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York..................................................    46
.................................................................
The Honorable Russell D. Feingold, a U.S. Senator from Wisconsin.    47
Honorable Stanley Roth and the Honorable C. David Welch..........    49
Mr. Charles Costello.............................................    59
Dr. Andrew MacIntyre.............................................    66

Additional material:

Report from the East Timor Action Network submitted by Hon. Tom 
  Lantos.........................................................    70
Report from East Timor by The Carter Center submitted by Mr. 
  Costello.......................................................    78
Statement submitted for the Record by Hon. Lincoln Chafee, a U.S. 
  Senator from Rhode Island......................................    82
Questions submitted for the record to Assistant Secretaries Roth 
  and Welch by Senator Feingold..................................    84
Questions submitted for the record to Assistant Secretaries Roth 
  and Welch by Representative Bereuter...........................   116


                      EAST TIMOR: A NEW BEGINNING?

                              ----------                              


                      THURSDAY, FEBRUARY 10, 2000

        U.S. House of Representatives, Committee on 
            International Relations, Subcommittee on Asia 
            and the Pacific, Joint with the U.S. Senate, 
            Committee on Foreign Relations, Subcommittee on 
            East Asian and Pacific Affairs,
                                                    Washington, DC.
    The Subcommittees met jointly, pursuant to notice, at 1:30 
p.m., in room 2123, Rayburn House Office Building, Hon. Doug 
Bereuter [Chairman of the House Subcommittee on Asia and the 
Pacific] presiding.
    Mr. Bereuter. The Subcommittee on Asia and the Pacific 
meets today in session, jointly with the Senate Foreign 
Relations Subcommittee counterpart, to receive testimony on the 
political and economic future of East Timor in the aftermath of 
a string of historic events. It is uncommon for the House and 
Senate Asia-Pacific Subcommittees, or their equivalent names, 
to meet jointly, but these have been very uncommon times in 
East Timor, to say the least. That has resulted in our second 
joint hearing on the subject in just 5 months. I certainly want 
to warmly welcome Chairman Craig Thomas and other Senate 
colleagues who may join us.
    I also want to thank the Commerce Committee, particularly 
Chairman Bliley and his staff, for making this hearing room 
available to us, since our major hearing room is under 
reconstruction at this moment.
    I also want to indicate that the House Subcommittee on Asia 
and the Pacific will be holding a separate hearing entitled 
``Indonesia: Confronting the Political and Economic Crisis,'' 
next Wednesday afternoon at 1:30 in Room 2200 of the Rayburn 
Building. This back-to-back pair of hearings will allow the 
Subcommittee to devote the requisite amount of time and 
attention that East Timor and Indonesia each individually 
deserve. Today we will be concentrating on East Timor, and I 
serve notice to my House colleagues that I intend to try to 
avoid a focus on East Timor in the hearing next week. We need 
to spend an equal amount of time on Indonesian-American 
relations.
    I have some comments that I will come back to now, but 
because there are pending votes in the House and the Senate, I 
will turn to Senator Thomas for any opening statement he might 
like to make at this point, and then comment further and turn 
it over to my colleague from California, Mr. Lantos. Senator 
Thomas?
    Senator Thomas. Thank you very much, Mr. Chairman. I, too, 
am pleased to be able to meet together. We have done that a 
couple of times, both, interestingly enough, on East Timor. I 
guess that indicates some of the interest that we have in it.
    Last September, of course, the outlook for Timor was pretty 
bleak. After the August plebiscite, 78 percent voted for 
independence, there was a great deal of problem with the 
Indonesian military unleashing a reign of terror designed to 
drive people from their homes and into the mountains and to 
West Timor. Unknown numbers were killed.
    Thankfully, much of that pressure has changed, and by 
pushing from the international community, the Indonesian 
government requested U.N. assistance, stabilizing East Timor, 
had the International Force there, I think carried it out very 
well. I certainly want to express my appreciation for the role 
that Australia played in this mission.
    Today the picture is somewhat brighter, I think. Military 
violence has ended. Generally, the U.N. has established 
hopefully a viable entity there to provide the transition. Some 
refugees have, as I understand it, begun to return. The Human 
Rights Commission has issued a scathing report on Indonesia's 
military. That is not resolved yet, but certainly has something 
to be said for it.
    However, the job is not finished. The infrastructure for 
democracy cannot be established easily, and I think has not 
been established, lacks the basic rudiments of self-government. 
There are forces that see the situation, intend to destabilize 
it from the border on West Timor. I think there are going to be 
problems economically, certainly for attracting people to come 
there and be able to support themselves, so this is a challenge 
we face, certainly.
    As you say, we are talking about East Timor today. However, 
that question is not in a vacuum. There are other issues with 
regard to Indonesia which may have a great deal to do with East 
Timor.
    I am very pleased to be here today, and I am pleased to 
have our testifiers here, and who are more familiar with the 
situation than we, and that is the purpose. So thank you, Mr. 
Chairman. I look forward to the testimony.
    [The prepared statement of Senator Thomas appears in the 
appendix.]
    Mr. Bereuter. Thank you very much, Senator Thomas.
    We last met on the subject of East Timor on September 9th, 
and murder and mayhem in East Timor were dominating headlines 
around the world. The Indonesian military, in particular, 
appeared to have been deliberately unwilling or perhaps in some 
cases unable to uphold the responsibility demanded to provide 
peace and security during and after the referendum in which an 
overwhelming majority of East Timorese voted for independence.
    One of the immediate concerns that we have, of course, is 
to ensure that there is basic nutritional, health, and housing 
services that are reaching the population of East Timor, and of 
course the still vexing problem of the repatriation of those 
East Timorese refugees who fled to other parts of Indonesia, 
and particularly to West Timor, where some are still being held 
as virtual prisoners by armed militia. Ensuring unrestricted 
international access to and safe passage home for these 
refugees is indeed Indonesia's obligation, and Jakarta's 
continued failure in this regard will only exacerbate 
Indonesia's standing in the international community, with grave 
risk to Indonesia's own fragile transition process.
    The recent decision by the Indonesian government commission 
of inquiry to charge senior members of the Indonesian militia 
and military for human rights abuses in East Timor is a very 
important first step toward the closure of this bloody chapter 
in East Timor's history, and appears to be the kind of strong, 
positive action for which the U.S. and others have called.
    While these indictments have an important bearing on U.S.-
Indonesian relations, we must not allow this set of issues 
along to halt the proper engagement with Indonesia's military 
or do crucial damage to our overall relations with Indonesia. I 
strongly believe that previous well-intentioned but in some 
cases special-interest motivated congressional actions, which 
were focused almost exclusively on East Timor, have largely 
been counterproductive for America's interests in Indonesia. 
Now we have a chance to step back and certainly most 
energetically examine Indonesian-American relations.
    I don't believe we should repeat, of course, those 
mistakes, if there have been some, nor should we do anything to 
unintentionally undercut the bold actions of President Wahid to 
investigate and prosecute those responsible for human rights 
abuses in East Timor, by once again conditioning broader U.S. 
relations with Indonesia primarily on developments in or with 
regard to East Timor. I also believe that we should give that 
important internal process a chance to succeed before 
proceeding any further with a Bosnia-style international 
tribunal for East Timor.
    Those are my views and concerns. I am willing to listen to 
information, of course, to the contrary. I want to say, before 
I turn to my colleague, Mr. Lantos, the Ranking Member, that I 
will introduce at this point the distinguished two panels of 
witnesses.
    Testifying for the administration will be the Honorable 
Stanley Roth, the Assistant Secretary of State for East Asian 
and Pacific Affairs. Secretary, we welcome you back to the 
Subcommittee, where you rendered long and extraordinary service 
as the distinguished Staff Director for the Subcommittee.
    Also testifying for the Administration and concentrating on 
United Nations operations in East Timor will be the Honorable 
C. David Welch, an Assistant Secretary of State for 
International Organization Affairs. A career Foreign Service 
officer, Mr. Welch has held a number of important positions 
with the State Department in Washington and throughout the 
Middle East and Asia.
    We are also honored to have an excellent second panel of 
distinguished witnesses. Mr. Charles Costello is presently the 
director of the Carter Center's Democracy Program, and led the 
Carter Center's election observer delegation to East Timor. 
Prior to joining the Carter Center, Mr. Costello had a lengthy 
and successful career with the U.S. Agency for International 
Development, where he directed AID's Center for Democracy and 
Governance.
    Second, Dr. Andrew MacIntyre is a leading authority on the 
politics of economic reform in Southeast Asia, and is presently 
associate professor and director of the ASEAN-Pacific Project 
at the Graduate School of International Relations and Pacific 
Studies at the University of California-San Diego. He 
previously served as associate dean of that school. While he 
certainly is well respected and recognized for his outstanding 
writing and presentations on Indonesia and other ASEAN 
countries, it is his research and analysis on East Timor and 
its future which makes him an especially valuable witness to 
our joint Subcommittees today.
    So we welcome all of you distinguished gentlemen from both 
panels. I would ask my colleagues for unanimous consent that my 
entire statement may be made a part of the record. Hearing no 
objection, I will now turn to the distinguished Ranking Member, 
Mr. Lantos.
    [The prepared statement of Mr. Bereuter appears in the 
appendix.]
    Mr. Lantos. Thank you very much, Mr. Chairman. I have no 
prepared statement. I would like to make a few observations, if 
I may. I also would like to include in the record the written 
statement of the East Timor Action Network.
    Mr. Bereuter. Without objection, that will be in the 
record.
    [The prepared statement of the East Timor Action Network 
appears in the appendix.]
    Mr. Lantos. As you know, Mr. Chairman, it was the 
Congressional Human Rights Caucus which held the first hearing 
on East Timor of any congressional entity many years ago, and 
indeed it was the Congressional Human Rights Caucus which held 
the first hearing on Kosovo many years ago, at a time when 
neither East Timor nor Kosovo were on anybody's radar screen. I 
am mentioning this because there is a very naive and, in my 
judgment, mistaken assumption that those of us who are 
concerned with human rights issues in a very intensive manner 
are dealing with the soft, difficult to define, nebulous arena 
of international affairs, unlike people who deal with economics 
or military matters and the like.
    But in point of fact, recent experience very clearly 
demonstrates that unless the human rights issues are attended 
to early on, unless the problems are nipped in the bud, unless 
the problems are approached at a time when far more peaceful, 
constructive, mutually beneficial solutions are available, we 
sooner or later find ourselves, as we did in the case of 
Kosovo, with a major NATO war, the first NATO war in NATO's 50-
year history.
    In the case of East Timor we find ourselves with a 
catastrophe: a referendum opting for independence because there 
was not enough pressure on the previous Indonesian government 
to address the human rights and other concerns of the East 
Timorese people. Of course the nightmare of deliberate and 
wanton destruction of the infrastructure of a whole society, 
leaving aside the enormous human damage and tragedy which 
unfolded.
    I am mentioning this because it seems to me that important 
elements in our society, both in and out of government, 
continue to either believe in the mistaken notion or pretend to 
believe in the mistaken notion that the human rights issues are 
soft secondary issues and they really do not need the kind of 
attention that we give to problems once the crisis is here, as 
it was in the case of Kosovo as every night we watched tens of 
thousands of Kosovars dragging their weary bones into Macedonia 
and Albania, and as we watched in horror as the militias and 
the Indonesian military perpetrated the outrages in East Timor.
    There is one other observation I would like to make, and 
perhaps our Full Committee will need to hold hearings on this. 
One of the most fascinating aspects of this post-Cold War era 
is that we are simultaneously observing processes of 
integration in many parts of the world, particularly in Europe 
through the European Union, but not the only example, and 
fragmentation. It is very difficult for most, even for 
specialists, to make sense of these two simultaneous but 
clearly contradictory phenomena.
    Most outstanding examples, of course, are Soviet Union and 
its disintegration, and the former Yugoslavia and its 
disintegration, but Indonesia is not a bad example, because 
East Timor is clearly not the only area which is interested in 
attaining either some degree of autonomy or independence, 
whether it is the Ucher region, whether it is Bali or other 
areas. My first trip to Indonesia was in 1956, at the time of 
the Sukarno dictatorship, where while the same centrifugal 
tendencies were in evidence, they were not on the front pages 
of our newspapers.
    What we find now is that in many societies, in Asia and in 
Europe and in Africa, the processes of integration and 
fragmentation are unfolding simultaneously, and we stumble into 
the creation of new states--whether we call them states or not 
is secondary--such as Kosovo or East Timor. In some cases the 
very viability of these states is very much in doubt, and the 
chances are East Timor for many years to come will be an 
international ward.
    So I want to commend you for holding this hearing and make 
a general observation that I hope when the human rights 
community in the future will point to budding crises, our 
voices will be more carefully listened to, because unless they 
are, we will have many more Kosovos and many more East Timors, 
with tens of billions of dollars in international financial 
costs and of course the unmeasurable human tragedy and 
suffering, which in the case of the former Yugoslavia by now 
are close to 300,000 innocent men, women and children who have 
been killed in one way or another since the breakup of 
Yugoslavia.
    Thank you, Mr. Chairman.
    Mr. Bereuter. Thank you, Mr. Lantos, for your reminder and 
observations which I think are entirely appropriate. Whether or 
not they are formal Members, I think every Member of the House 
should be a Member of the Human Rights Caucus, and I appreciate 
the leadership you have brought to it as co-chairman, founding 
co-chairman, I believe.
    One observation. I do think it is probably an error for our 
Committee to be divided up so that we have a separate Human 
Rights Subcommittee and also has major responsibilities for 
international operations. It seems to me that the human rights 
responsibilities ought to go directly with each geographic 
Subcommittee and be an integral part of our process here, and I 
think our division now perhaps does not serve us well.
    I would like now to turn to our witnesses, and without any 
objection, any Members' statements, opening statements, will be 
made a part of the record. We will call first upon the 
Honorable Stanley Roth for such comments as you might like to 
make. The statements of you and other witnesses will be made a 
part of the record in their entirety, and you may proceed as 
you wish. Take 10 minutes or so, whatever you would like in 
that respect, and any kind of summary you want to present will 
be quite welcome. Please proceed.

  STATEMENT OF STANLEY O. ROTH, ASSISTANT SECRETARY FOR EAST 
                   ASIAN AND PACIFIC AFFAIRS

    Mr. Roth. Thank you very much, Mr. Chairman. Mr. Chairman 
and Members of the Committee, I will take advantage of your 
offer. I have submitted a rather detailed written statement. It 
is a joint statement both for my colleague, Assistant Secretary 
David Welch, and myself, so we won't be giving two testimonies 
from the State Department. What I really want to do is to 
assume a level of knowledge of these two Committees and not go 
back and review what happened last year, which I think you are 
intimately familiar with instead I'd like to start with a 
current assessment of where we are and where we are going.
    I would like to make one comment based on Mr. Lantos' 
remarks, because I think in one sense you are not giving enough 
credit to the accomplishments of the human rights community, 
including yourself. If you think back to the events of 1975 and 
to the events of 1999, I think you will see a powerful 
difference.
    In 1975 when Indonesia invaded East Timor, there was no 
major international response. In fact, Australia even 
recognized the incorporation. There was no concerted pressure 
on Indonesia to change policy. Somewhere between 50,000 and 
200,000 people, probably at the higher end of that spectrum, 
died. The tragedy was absolutely off the scales in terms of 
enormity particularly when you think about the percentage of 
East Timor's population that perished.
    As awful, unnecessary and painful as it was what happened 
in 1999, was different. The pressure from the international 
community, including, I am proud to say, the United States, 
both administration and Congress--I think we were together on 
this--was successful in mobilizing very quickly pressure on 
Indonesia to allow an international force in. As a result the 
casualties were a small fraction of what they were the previous 
time.
    I am not suggesting that anyone should feel good about what 
happened, because obviously prevention of the tragedy would 
have been far more desirable than what actually occurred. But I 
think that there is a difference now in human rights and how 
they are valued by countries. The fact that many Asian 
countries are joined with a number of Western countries in 
mobilizing this coalition is significant. So there has been 
considerable success in this 20-plus years that you have been 
talking about, both on East Timor and on other human rights 
problems.
    Now, let me start on the situation in East Timor itself. 
What I propose to do is talk first about East Timor, and than 
about West Timor, primarily the refugees; talk a little bit 
about the question of aid levels, a little bit about 
peacekeeping; and finish up on the question of accountability.
    First, with East Timor, if you compare the situation now to 
the hearing you held 5 months ago, approximately, the 
difference is obvious. At that point there was no security in 
East Timor, the destruction was continuing, we didn't know what 
the level of fatalities or damage was, and the situation looked 
grim.
    If you look at it now, it is fair to say that East Timor 
has been secured. The Australians did a brilliant job as the 
head of the multinational force in establishing security very 
quickly in East Timor. Many of the concerns that we had in 
September did not materialize. There has not been civil war in 
East Timor. There have not been concerted militia actions, only 
a handful of incidents. There has not been cross-border 
fighting. There have not been raids from West Timor into East 
Timor. East Timor is secure in terms of military forces. That 
is a huge accomplishment.
    We are now in the process of making the transition--I know 
how much you love the acronym soup--from INTERFET to UNTAET, 
which are the names of the international operations. What it 
means in operational terms and in terms of peacekeeping is a 
transition from the Australian-led force to the force that now 
will be headed by a Filipino commander.
    It is, of course, a very large force, established by U.N. 
resolution, and I will get to that in a minute. A very able 
United Nations administrator, Sergio Vieira de Mello, who has 
done a brilliant job in trying to manage the situation, working 
far more closely with the East Timorese themselves and 
ameliorating many of the problems that had started to fester 
before he arrived in terms of relations with the Timorese and 
the U.N. force. Now he is dealing not primarily with security 
issues but rather with the very difficult set of humanitarian 
and development issues that East Timor will have to address.
    In fact, one of the sad ironies now is, the greatest threat 
to the security of East Timor is crime rather than military 
violence. We have had 40-plus murders not related to politics 
in the past few months, which is an unacceptable level and 
something that we have to do something about. But the problems, 
as I am trying to emphasize, are ones that are not subject to 
immediate fixes.
    East Timor was poor before the violence of this past 
September. It is even poorer as a result of the destruction of 
infrastructure, particularly an estimated 70 percent of the 
houses. It is going to take a long time to reconstruct this 
society, where the teachers have basically left, where the 
medical establishment has basically left, the civil servants 
have basically left. I think there are five lawyers in that 
half of an island.
    You can see the magnitude of the task to be done in terms 
of setting up institutions, setting up government, providing 
education, carrying out development. I fully expect that there 
is going to be a vast array of problems. You are going to hear 
stories that it is not going quickly enough, that the 
priorities are wrong, that the U.N. should be doing things 
differently, that aid isn't flowing fast enough. We will work 
on those problems. I am not suggesting they are spurious but 
those are the same problems we face in every area where you 
have to deal with reconstruction on as vast a scale as this. 
Compared to where we had been, when we didn't know that an 
independent East Timor, rather, was going to exist, I think we 
have come a long way.
    I look at East Timor in three phases. We have the 
humanitarian phase, which is dealing with the immediate 
consequences of the fighting, the violence that happened last 
September; the reconstruction phase; and, nearly 
simultaneously, the preparations for independence. There is 
still a lot of work to be done in terms of writing a 
constitution, holding elections, preparing the institutions so 
that somewhere down the line--it is not really clear to me 
whether it will be a 1\1/2\ year, 2 years, or 3 years, it will 
depend on progress--that East Timor formally becomes 
independent. But I think those are the phases that have to take 
place.
    Now, the situation in West Timor. This is a far more 
complex situation than is commonly understood. First, the 
success. There has been a very major refugee return. At least 
135,000 refugees have gone back. That is out of an estimated 
total, and we don't really have the precise figure, of 
somewhere between 225,000 and 275,000. I am not sure we will 
ever have the accurate figures, but the figures I am getting 
now include roughly 100,000 refugees remaining. That could be 
off by 10,000 to 15,000, but that gives you a sense of the 
order of magnitude.
    Now, what is different from when you had a last hearing in 
September? In September you had a situation where the refugees 
had been taken to West Timor there almost overwhelmingly by 
force. They were bused out, they were forced out at gunpoint, 
they were terrorized until they left. You had a situation where 
you had a large number of people, almost a quarter of a 
million, who basically were there against their will, or at 
least most of them we thought were there against their will, 
and with very little access from the international community.
    Now you have a situation where there is much better access 
by the international community, but let me be clear, by no 
means perfect access. It varies not only by place but by the 
week. We just had a visit by the U.N. team to West Timor and 
they said at this point the Kupang area is not getting good 
access, whereas Atambua is getting very good access. This 
changes by the day.
    But overall there is international access. A lot of 
refugees have returned, and, most importantly, we now have a 
situation where we believe that the majority of the refugees 
who wanted to return have returned. You have a situation where 
you now have people, who were either involved with the militias 
or were civil servants.
    There was an extraordinarily large civil service in East 
Timor that can't be justified now. There was featherbedding. 
You had 28,000 civil servants. It is going to be less than half 
of that. Many of those civil servants don't want to go back if 
they have no salaries, and would rather collect their 
Indonesian pension.
    So you have groups of people who don't want to go back 
ever. You also have groups of people who don't want to go back 
now, either because they have planted a crop and they want to 
wait for it to harvest or because it is the rainy season and 
travel conditions are poor; or, more ominously, because the 
intimidation hasn't ended and they are afraid to go back. There 
are still militias present in some places and there still are 
examples of harassment. There are people who are afraid because 
they think it won't be safe for them to go back to East Timor.
    There has been a tremendous amount of disinformation from 
the militia groups but also, regrettably, in recent weeks there 
have been some incidents in East Timor itself, in terms of 
incidents against Chinese, against what are called ``Muslims'' 
meaning non-Christian Timorese. There are some genuine examples 
where people are afraid to go back because of what has happened 
to people who have gone back. I am not trying to exaggerate the 
situation nor create equivalence. It is nothing like the 
violence that happened in September, but there is real fear in 
some elements in the camps.
    So what we have is a far more complicated picture where, 
even though the number of refugees is high, at least 100,000, I 
can't tell you that there are 100,000 people that are being 
held against their will. That would be a gross exaggeration.
    The challenge for the Indonesian government is to separate 
the people who want to go back from those who don't, to either 
create jobs in West Timor or arrange transmigration out of 
Timor, for those who have no intention of ever going back to 
close down the militias, make sure there is no harassment, and 
making sure that those people who do want to go back, whether 
there are 10,000, 20,000 or 40,000, whatever number it is, can 
go back; in other words, to bring to closure this chapter in 
the refugee saga.
    This continues to be a very high priority for the 
Administration. I personally raised this issue with the Foreign 
Minister of Indonesia last week, and reminded him of the Leahy 
Amendment and the fact that the United States will not be able 
to resume normal relations, or at least training and FMF 
military sales, until the refugee problem is addressed and 
finalized. I made it clear that they should not delude 
themselves that the current situation is satisfactory. We could 
not meet the Leahy condition today, and I have told them that 
that is the policy of the administration, and that message has 
been delivered at many levels.
    More briefly, in terms of aid, I think you are aware that 
there was an international donors conference. This is an 
excellent example of burden-sharing, which is something that 
Congress generally is insistent on in international situations. 
Australia, Portugal, Japan, are all major donors, along with 
ourselves. A total of $522 million was pledged at the donors 
conference in Tokyo over a 3-year period, so that there is a 
massive amount of aid, roughly comparable to the need, 
available for East Timor.
    In terms of U.S. aid, I am afraid I don't have the degree 
of detail you would like this week. I hope to have it for you 
next week. That is because we are finishing consultations, with 
both the House and the Senate, on how to spend the $25 million 
that was earmarked in the last appropriation bill for East 
Timor in ESF. But the overwhelming majority of that will be 
spent by AID for development, and there will be some 
contributions to international trust funds as well.
    In addition to these funds, there will be further funds 
that will be spent, not out of the earmarked funds, for 
civilian police. You may have seen the figure in my statement, 
about $8.5 million, to pay the salaries of American civilian 
police. We believe that is a crucial component in dealing with 
the crime situation. During the Indonesia hearing next week, I 
hope to be able to give you a precise breakdown of how we would 
spend that $25 million. But the United States can be proud that 
it is one of the largest donors and is continuing to help the 
people of East Timor.
    In terms of international peacekeeping, I think you are 
familiar with the three different phases of the international 
operations, starting with UNAMET, going to INTERFET, and now 
ending up with UNTAET. At every step of the process we have not 
been in the leadership role in the number of personnel, but we 
have played significantly. We had a number of civilian police, 
30 civilian police, 3 military observers, in the first phase.
    We had more civilian police, 45, and 3 military observers 
in the second phase, plus some forces on the ground that 
President Clinton announced in September in response to the 
violence. I can't give you one level figure for these since the 
number varied, but at a maximum it was about 200 people on the 
ground in East Timor plus a number offshore and in Australia.
    As for the third phase, that decision is on the President's 
desk and expected, I hope, even later today, but the concept is 
consistent. We will maintain the basic principle of what we 
have done, since September. There will be no combat troops, I 
can tell you that, consistent with what was decided in 
September.
    There will be a modest presence, which is important to show 
that we are still committed to a peaceful resolution, but it 
will not be a large force. They will be primarily rotational 
units that will be exercising under the discretion of the 
CINCPAC. They will not be formally attached to the U.N. 
peacekeeping mission. We will have, again, more details for you 
as soon as the President signs the formal order. We will be 
happy to brief staff and Members and to testify next week, but 
again, there will be no conceptual break with what we have been 
doing thus far, on which the Congress has been fully briefed.
    Finally on the subject of the commissions of inquiry and 
the accountability issue, there are two different processes. As 
you know, they both came to a head on the same day last week. 
There was the Indonesian process that you referenced in your 
opening remarks. It turned out to be a much harder hitting 
report than had been anticipated. It named 33 individuals, 
including 6 generals, the Governor of the province, the head of 
several of the militia groups. It was, by anybody's definition, 
a hard-hitting report.
    That is not, however, by any means the end of the process. 
It is the beginning. These names have now been turned over to 
the Indonesian attorney general for investigation. He has 
announced that he will make recommendations within 90 days, and 
possibly sooner, by the end of March, as to who should be 
prosecuted. Then there is the question of what happens in the 
prosecutions themselves, in terms of convictions.
    At the same time, there is an international process with an 
international commission of inquiry. Their report has been 
submitted to the Secretary General of the United Nations. That 
was a less detailed report actually than the Indonesian report, 
and it has called for continued international involvement in 
the investigation and in the judicial processes.
    The Secretary General has indicated, in his cover letter 
submitting that report to the United Nations, that it is his 
desire--which, I should say, the administration supports--to 
let the Indonesian process play out first to see how effective 
and how credible it is. The notion is if Indonesia carries this 
out all the way through, if you have a report that goes to the 
top, that has a credible judicial process, that has 
convictions, then it may not be necessary to do more on the 
international side, at least in terms of a tribunal.
    There may be room for cooperation on getting evidence and 
sharing evidence from the different investigations. At the same 
time we have made clear that if the Indonesian process isn't 
credible, that if it falls short, that there will be pressure 
for the international community to do more. The administration 
has said that at this point it would like to give the 
Indonesian government the lead with its domestic process, but 
we have made it very clear that if it is not an adequate, 
credible process, then we will have to consider supporting an 
international process.
    Why don't I stop at that point.
    Mr. Bereuter. Mr. Secretary, you have conveyed to us an 
impressive amount of information in a brief period of time, and 
well-organized.
    We would now like to hear from Secretary C. David Welch, 
the Assistant Secretary for International Organization Affairs. 
Mr. Welch?
    Yes? Have you got to vote?
    Senator Thomas. Can I ask a question or two? I just got 
beeped and I am going to have to go vote.
    Mr. Bereuter. Absolutely. If you will hold off, Mr. Welch, 
we will come back to you.
    Mr. Welch. That will be fine.
    Senator Thomas. Thank you, Mr. Secretary. You covered an 
awful lot in a fairly short time.
    Obviously the times have changed, they have changed for the 
better, but the real question, and you can attach it to several 
things we have been involved in lately, is you can make this 
first transition but the second one doesn't seem to happen 
very--Haiti, Kosovo, all of those places. I understand that 
they were set up for 1,400 civilian policemen and there is less 
than half of that there. Why is that?
    Mr. Roth. First, please don't assume that that is going to 
be the final outcome. We are going to get many more civilian 
police out there. The delay is partially because one has to get 
qualified civilian police. This is a multinational effort. It 
includes a lot of Third World countries. You want to make sure 
they have the right training and can handle the situations, 
particularly----
    Senator Thomas. Those are all excuses, but the fact is that 
they aren't there and I am told that they need them there.
    Mr. Roth. I agree, we need to get more out there. Including 
us, by the way, since we haven't done our share yet, because we 
haven't funded our own U.S. civilian police.
    Senator Thomas. This concerns me because, we go through 
this getting away from the battle part and getting over that, 
and did that very well, but then for instance the $500 million 
you mentioned, how much of that has been delivered?
    Mr. Roth. I don't have the exact number, but obviously very 
little, considering that the pledging conference was just a few 
weeks ago. But----
    Senator Thomas. How do you expect them to make a living and 
do it economically? They don't have any economy. What is the 
major economy there?
    Mr. Roth. Overwhelmingly it has been agricultural and it 
has been subsidized by the Indonesians in the past. I don't 
mean that to sound as positive as it sounds. I talked about the 
featherbedding of the civil service, which we are not going to 
repeat.
    Part of Indonesia's shameful legacy there is that not one 
factory was ever built in East Timor. We have to look and see 
if we can get some investment once you have the appropriate 
conditions. But I think there are several sources of money. 
One, very promising on the coffee side, which is a major export 
and something the United States has been trying to develop.
    A second source is Timor Gap revenues. As you know, there 
is believed to be a lot of gas and maybe oil in the gap between 
Australia and East Timor. In the past there was an agreement 
between Indonesia and Australia about how those revenues should 
be shared. Now there is a process going on to try to 
renegotiate so that East Timor gets its share of those 
revenues, which could be quite a lot.
    We are talking about a place of 700,000 to 800,000 people. 
We are not talking about multibillion dollars worth of needs. 
There is a potential for tourism. They have a granite industry. 
I am not telling you that they are going to be rich, but there 
is a chance that they could make it if they can get past this 
reconstruction.
    Senator Thomas. Just one more observation, and I am 
positive about it, as you are, and I think we can do something. 
But here is a country with 700,000 people and basically no 
economy, basically no structure for self-government, and they 
want to be independent.
    Now we have kind of completed the main thing. That is 
always in the public arena, and we have done that. Now I guess 
the real issue is, what do we do now to make this work. You 
could even ask the basic question: Is that the basis for an 
independent country?
    Mr. Roth. I think the answer is going to have to be the 
choices that the people of East Timor and their leaders make 
and how they set this country up. For example, an East Timor 
that gets along with Indonesia, that gets along with ASEAN, 
that has positive relations, is going to have a better chance 
of making it--it shares an island, or half an island, with 
Indonesia--than one which doesn't.
    Senator Thomas. Absolutely.
    Mr. Roth. We have seen some extraordinarily impressive 
leadership from Xanana Gusmao and Ramos-Horta and some of the 
others, despite the horrific violence which was inflicted on 
them. They have traveled to Jakarta, met with the Indonesian 
leaders, and said they are interested in reconciliation and 
want to work together. Indonesia is now talking, incredibly, 
about opening up a liaison office back in East Timor, and the 
Timorese are talking about doing it in Jakarta.
    Senator Thomas. That's good.
    Mr. Roth. Don't sell them short.
    Senator Thomas. Good. I guess my whole issue is that we 
have gone through this. I am very pleased with what has 
happened. I think we have done a good job, Australia has done a 
good job, but unless there is some pretty serious planning done 
now and some movements to implement that, it is hard to imagine 
that this thing is going to take off.
    Mr. Roth. You are absolutely right.
    Senator Thomas. And you are exactly right. If they are 
going to completely identify--move themselves away from 
Indonesia, they are----
    Mr. Roth. Agreed.
    Senator Thomas. Thank you, sir.
    Mr. Bereuter. Thank you, Senator Thomas. Come back if you 
can.
    Now we will turn to Secretary Welch. You may proceed as you 
wish.

     STATEMENT OF C. DAVID WELCH, ASSISTANT SECRETARY FOR 
  INTERNATIONAL ORGANIZATION AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Welch. Mr. Chairman, perhaps we should just proceed to 
questions. I have little to add to what my colleague Stanley 
Roth has already said.
    Perhaps I should point out, in answer to the Senator's 
question, that the U.N. leadership is concerned with, bedeviled 
by, some of the very same problems he identified. The Under 
Secretary for Peacekeeping was in my office yesterday. We had a 
long discussion about the pace of CIVPOL deployment. It is an 
issue that they are riveted on, given what is probably a more 
pressing need for policemen than for military at this point. 
They are focused on it.
    Second, Sergio de Mello, who I think we all agree is a very 
capable administrator, identified as one of his two primary 
problems, when he briefed the Security Council just a couple of 
days ago, would be the flow-in of dollars to begin the process 
of reconstruction and rehabilitation in a way that will get 
money into the economy to sustain people there, and so that 
livelihoods can be rebuilt again. The Secretary General of the 
United Nations is planning a trip to East Timor imminently, and 
I expect this will be on his agenda, as well.
    [The joint statement of Mr. Roth and Mr. Welch appears in 
the appendix.]
    Mr. Bereuter. I thank you, Secretary Welch. We are aware of 
the fact that you had a joint statement, the two of you, and so 
we will proceed to questions at this point. Since we began with 
Senator Thomas so he could leave, we will go the Ranking 
Member, Mr. Lantos. We will proceed under the 5-minute rule, 
but I believe we will have a chance for two rounds.
    So, Mr. Lantos?
    Mr. Lantos. Thank you, Mr. Chairman. I want to commend our 
witnesses and I want to commend the administration for handling 
a very difficult situation very effectively. I am sorry that 
our colleague is no longer here, because I think our insistence 
on others paying their pledges and commitments would have a 
somewhat more authoritative sound if we had not been delinquent 
for so long in paying our United Nations dues, but it is 
certainly the hope of all of us that these pledges will be 
fully met.
    I have a rather specific general suggestion. I know that 
Japan has been quite forthcoming in terms of economic 
contributions to all of these international endeavors, and I 
commend them for this. But I find it unacceptable that two 
generations after the end of the Second World War, Japan is 
still hiding behind what is clearly an obsolete constitution in 
terms of their military participation in peacekeeping efforts.
    My understanding is that there are a handful of Japanese in 
a support role, but I would like to ask both of you, if both of 
you wish to deal with this, whether there is any high level--
and I mean high level, Secretary of State level--initiative 
that we can anticipate, pointing out to the Japanese that if 
German troops can participate in the Balkans, as they have in 
large numbers and continue to do so, since they have recognized 
that the new Germany has very little to do with Hitler's 
Germany of the 1930's and 1940's, what do we need to wait for 
in terms of Japan accepting its proper share of responsibility 
in peacekeeping or even peacemaking activities in Asia and the 
Pacific region?
    I find this lack of burden-sharing, from the point of view 
of one Member of Congress, unacceptable. I find the notion that 
the Japanese are prepared to write a check but they are not 
prepared to participate physically--had it not been for the 
Australians, this endeavor, just as the Kosovo endeavor, would 
have fallen overwhelmingly on the shoulders of the American 
military.
    This is an absurd situation, and I have raised this issue 
with previous administrations, and I will continue to raise it 
with this one and future ones. I would be grateful, Secretary 
Roth, if you would address it as fully as you are willing to 
do, because this facade of a clearly obsolete constitution is 
no longer an acceptable answer.
    Japan's role in trying to build a Greater East Asia co-
prosperity sphere three generations ago is not an answer as to 
why the Japanese are not participating at least to the same 
extent that the Australians are participating. They have the 
resources. They have the manpower. They have certainly the 
economic capability. Our timidity in approaching this issue in 
bilateral dealings with the Japanese is extremely 
disconcerting.
    Mr. Roth. I am sorry that you raised the issue in the 
context of constitutional reform rather than in the context of 
Japanese policy, because I don't think they need to reform 
their constitution in order to address this issue. As you know, 
Japan has had some participation in international 
peacekeeping--I am thinking about Cambodia--and it is not 
impossible for them to do it.
    The issue is not their constitution, and I would argue in 
fact that there would be huge reactions in Asia if Japan were 
to amend its constitution; that you might see a surprising 
amount of negative feedback. There was a lot of hostility, you 
may recall, when Japan sent the peacekeepers to Cambodia, even 
though we hugely applauded it.
    But I don't want to beg the issue, which is more Japanese 
participation in these peacekeeping exercises, and I have not 
only heard your comments but agreed with a lot of it. On my 
last trip to Japan, which was about 3 weeks ago, I had many 
conversations with them. My emphasis was more on the police 
than on the peacekeepers in this case, and the reason for that 
is, the real need in East Timor is for the police rather than 
the peacekeepers.
    Mr. Lantos. No, but my question is a generic question. 
There will be future crises in Asia, and unless we have the 
United States or Australia again carrying the main burden, 
there will be no mechanism by which to implement policy, when 
the Japanese are fully capable of participating.
    Mr. Roth. I agree with that, and I think there is a further 
point which has been made to them, that if Japan wants a 
permanent seat on the Security Council, it is going to be 
expected that it will play a larger role in the decisionmaking 
process and in the international activities that are approved. 
So this is an issue where Japan is going to have to do better.
    I must tell you, though, I met with a number of 
parliamentarians on the same trip that I just described, and 
the reaction I got was, ``You know, if they had one fatality in 
Timor, it could set back Japanese participation in peacekeeping 
for 10 years.'' There is this mentality that Cambodia was a 
close call and almost got them permanently out of the 
peacekeeping business.
    So there is a tremendous timidity, but I think in terms of 
the trends for the future, you are right, there is not one 
standard for Japan and one standard for all other countries 
that do peacekeeping, and they are going to have to do better.
    Mr. Lantos. Now, this degree of sensitivity, which I agree 
with you is present, will have to be overcome. I mean, the 
notion that no Japanese can potentially be hurt anyplace on the 
face of this planet is an idiotic and naive notion. This is 
still a dangerous world. Large numbers of other people get 
hurt. To have Japan exclude itself from carrying any of the 
physical burdens of activities such as this, sticks in the 
throat of many of us, and we hope that the administration will 
raise the issue with the seriousness that it merits.
    Mr. Bereuter. Maybe the gentleman and I would want to talk 
about a hearing on that subject.
    Mr. Lantos. A good idea.
    Mr. Bereuter. The Chair will recognize himself now under 
the 5-minute order.
    We all recognize the role of the Portuguese, and certainly 
it is self-evident that there has not been enough focus on 
training for self-government in East Timor. I am reminded also 
that when the Portuguese left their colonies, East Timor was 
absolutely in the worst condition of all their colonies, with 
not a single college-educated person in East Timor, as I have 
noted in various books.
    I would like to focus a little bit on our effort to see 
progress toward independent governance in East Timor. I don't 
think it makes sense that they are going to be an independent 
country in an economic sense, but I am glad, since autonomy is 
now acceptable, we are going to proceed in that direction, and 
we have to think of them, I guess in a benevolent sense, as an 
international welfare case for a while.
    How long is it expected for the U.N. to set up the 
necessary functioning institutions for self-government? Maybe 
we will start with you, Mr. Welch. What are your predictions in 
that respect?
    Mr. Welch. I think first we ought to speak to their 
intentions, that is, the U.N.'s. It is inherent in the title of 
the organization. It is a transitional administration.
    The way I understand it from talking to de Mello and other 
senior leadership at the United Nations, they want to work 
themselves out of business, and as far as they are concerned, 
the sooner they do that, the better. Now, they realize of 
course that they can't--it isn't going to be that simple 
because they have a variety of targets, and you mentioned some, 
which pose some serious challenges, and I think the question is 
at what pace and what phase they would do those things.
    When this was addressed in a session of the Security 
Council at the beginning of this week, de Mello put his 
emphasis first on starting the--doing a more effective job in 
rehabilitation, reconstruction, and resetting the economy on 
somewhat of a footing, but on a firmer footing, with some 
reluctance to pursue immediately into some of the political 
issues for fear of politicizing the environment there.
    He had listed two principle challenges in his briefing to 
the Council. First was to establish some rapport and 
cooperation with the East Timorese. That I think he has made a 
credible and good start on. Second was this economic area that 
I mentioned earlier, where there have been more difficulties. 
So, to the extent I understand their phasing, it would be that.
    Mr. Bereuter. Let me, in order to draw you out further on 
this, what can be done, not only by us but internationally, to 
expedite the self-governance process? What conditions have to 
be met before elections are possible? With respect to democracy 
building, what specifically will our country do to help build 
democratic institutions and institutions of self-governance? 
Can you take on that three, that combined three questions 
there? Mr. Roth?
    Mr. Roth. Sure. First it is useful to know what the 
Timorese themselves are thinking. I have talked about this 
precise question to Xanana Gusmao and Ramos-Horta, and their 
thinking has been quite pragmatic. Prior to the violence in 
September, their hope had been--they had always assumed they 
would win the referendum--that they would have independence in 
6 to 9 months. Following the violence and the reports of what 
had gone on, they were talking more in terms of 3 to 5 years.
    Now that they are back on the island, not outside, living 
there and seeing the international efforts, we are hearing 
about shorter time periods. We have heard as little as 18 
months. We have heard 2 to 3 years at the outer limit. So, it 
is coming down to a manageable bite. They have defined the 
first year as reconstruction, and the second year as both 
development and institution-building.
    Xanana Gusmao and Ramos-Horta talk about the need for a 
constitution, the need to have an electoral process. Right now 
there are no elected leaders. Xanana, by virtue of his role as 
a guerilla leader, has been prominent. Ramos-Horta, by virtue 
of his role the past 20 years in exile and his receipt of the 
Nobel Prize has been another leader. But they don't have 
elected officials. So they need to work out procedures for 
local elections, figure out what it is that they want, a 
process by which they have a national election, and have the 
campaign and do it.
    So there is a fair amount of work that needs to be done 
just in building the basic building blocks of politics. There 
are no government institutions. But I think the intent is to 
move quickly on it. Again, if you take the 18 months to 3 years 
I think is the expected outcome, nobody is saying that they 
have to be fully independent economically before they can move 
toward political institutions, elections and independence. The 
feeling is that they are going to get aid after they are 
independent, as well.
    Mr. Bereuter. My time has expired. I will come back on a 
second round for more specifics on the aid and the current 
budget.
    The gentleman from Florida, Mr. Hastings, is recognized for 
5 minutes.
    Mr. Hastings. Thank you very much, Chairman Bereuter.
    Gentlemen, thank you for your presentations. In your joint 
offering under the heading ``U.S. Policy-Meeting the 
Challenges,'' you say the following: ``These then are the 
challenges that we face: building a new East Timor, resolving 
the fate of remaining refugees in West Timor, and ensuring 
accountability for past atrocities.'' And that is where I wish 
to place my focus.
    As an observer of international tribunals where bringing 
people to the bar of justice for their actions in other areas 
of the world, the process has been glacial to say the least, 
and the results have not in all instances approached what some 
of us might think would be a reasonable conclusion.
    I am curious, in this area, what is the United States 
position on the development of an international tribunal with 
reference to East Timor? What has been the Indonesian 
government's response to calls--for example, Carlos Belo called 
for an international tribunal--and what about the military? Has 
there been a response from them in this area?
    Mr. Roth. I thought I had laid out what the 
Administration's policy is. We are giving priority first to 
seeing how the Indonesian domestic process rather than the 
international process proceeds. As you know, it is not the norm 
that there is necessarily an international tribunal for every 
egregious human rights situation that happens everyplace in the 
world. It is more when you don't have a prospect for justice 
that you have to look at an international mechanism.
    What we are looking at now is a process in Indonesia that 
could potentially be a historic break from the past, where 
there has not been accountability for a wide range of human 
rights abuses. By contrast, there has been an investigation of 
East Timor. It was quite thorough. It named a number of 
individuals. It was unusual in Indonesian terms by naming 
specific people, including high level generals up to General 
Wiranto, the Governor of the province, militia leaders. If you 
had sat down with experts on East Timor and asked them to draw 
up a list of people that they thought needed to be 
investigated, and compared it with what the Indonesian 
investigation concluded, you would be quite satisfied.
    So now the question is, what is next? It is one thing to do 
a report. It is another thing to indict them and it is another 
thing to prosecute them and still another thing to convict 
them. We are going to have to see how this process plays out 
before we can give you any kind of answer as to whether there 
has been justice and accountability in East Timor.
    The point we have made to the Indonesians is a basic one. 
The Indonesian government is strenuously opposed to an 
international tribunal. That is not just the military, that is 
the government itself. They have said this is a different 
Indonesia, it believes in the rule of law, it believes in 
justice, and it is going to do this.
    We have said and many other countries have said, fine, we 
are certainly prepared to give you the chance, but you have to 
do it, and if you don't do it, then the international community 
is not going to give you a blank check. We are withholding the 
right to support an international mechanism if we don't feel 
that the job domestically is adequate.
    So that is the stage we are at, but I have to emphasize 
that the Indonesian process has gotten off to a very strong 
start.
    Mr. Hastings. Let me shift emphasis, then, to USAID. It is 
reasonable, I believe, to assert that food aid is going to be 
required for quite some time. With the rainy season ensuing 
there and many roads being impassable, my curiosity is piqued 
to ask the question whether or not there is any direction 
toward projects that would, for example, build roads that would 
help the delivery process or for an infrastructure.
    Is there anything being considered along those lines? Or 
otherwise you are just--there are a lot of places we go in the 
world, you know that if you can't drive a truck or you can't 
get something there, even the food aid that we propose to give 
sometimes becomes difficult, and not just the United States but 
donors otherwise. That will be my final question, Mr. Chairman.
    Mr. Roth. First, let me commit to get you a more detailed 
answer for the record, since this is not an area of expertise 
on my part. But let me give you some general impressions, 
having traveled to Timor twice last year and flown over it 
several times.
    My impression is, food is not the major problem. You had a 
food problem at the time of September because you had displaced 
people. More than half the population of East Timor was either 
internally displaced within East Timor or was across the border 
in West Timor. The farms were not being attended to, crops were 
being pillaged, and so of course you had a food problem. Even 
when you had food growing, you didn't have the people living 
there to tend to it.
    But that is not the biggest problem, and Timor is such a 
tiny place that it is not really the question of getting the 
food to market that is the biggest problem. We are not talking 
about vast distances. Sure, the roads can be improved, but let 
me tell you it is vastly different from when I went to East 
Timor for the first time in 1981, when there weren't roads. It 
is not like that now.
    So I suspect that that is not necessarily going to be the 
biggest focus. It is going to be a health delivery system, it 
is going to be creation of some kind of investment for 
industry, creation of some jobs program that they are going to 
need very badly. It is government. They have no police force. 
They have no courts. They have no medical processes. There are 
no doctors. There are no nurses. There are no civil servants. I 
mean, it is an incredible absence of personnel in these areas 
that the U.N. is just beginning to address now.
    Mr. Hastings. Mr. Chairman, I had said that that was my 
final question. I don't have another question. I just, not 
meaning to argue with you, Mr. Secretary, but while CRS may not 
be an eminent authority, at least they make offerings. In their 
November 5th report that I have in hand, they say because of 
destruction of homes, crops and farmland, the World Food 
Program estimates that 740,000 of a total East Timor population 
of 890,000 will need food aid over the next 6 months, and this 
is a November 5, 1999, report. I am not suggesting that it is 
inaccurate, but I am glad to hear what you said, and somebody 
needs to tell CRS that food ain't the issue.
    Mr. Roth. No, I think we are talking about two different 
things. What I am trying to suggest is, of course there was a 
staggering need, as a result of what happened, in what we call 
humanitarian aid. That is housing, medical, as well as food. 
That is clear, and there has been a major international 
response to that.
    But that is a very short-term piece. It has been the 
question--I took your question to be on the development side 
rather than on the immediate emergency humanitarian and 
disaster relief side. There once we get past this initial hump, 
once you have the next crop, I don't think food is going to be 
the overwhelming problem of East Timor. Jobs, will be a huge 
problem for East Timor.
    Mr. Hastings. Thank you.
    Mr. Bereuter. Thank you, Mr. Hastings.
    The gentleman from American Samoa, Mr. Faleomavaega, is 
recognized.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I do want to 
commend you and Chairman Smith for calling this joint hearing. 
I think it is not only timely but it is important that we also 
get the latest information from the administration, and I 
certainly would like to offer my personal welcome to Secretary 
Roth and Secretary Welch for their presence here in the 
Committee.
    So that I won't be redundant in expressing my personal 
sense of frustration and advocacy, because I have always said 
in the past several hearings, Mr. Chairman, and I am just going 
to say it very briefly, when we talk about East Timor, we have 
to talk about West Papua, New Guinea. But I will not talk about 
West Papua, New Guinea today, Mr. Chairman. It will be 
definitely my intention to offer legislation concerning this 
very serious matter affecting West Papua, New Guinea, but let 
us just touch the issue of East Timor.
    I think that I would be remiss, Mr. Chairman, if I did not 
say something for the record, to offer my personal 
commendations to the government of Australia for taking the 
initiative and the resources and the efforts that they have 
made, not only in the geographical sense but certainly taking 
the leadership of what they had to do to bring peace and to 
restore peace in that region of the world, especially when it 
directly affects its own security and well-being.
    I recently, and I am sure both of you Secretaries have 
noticed the latest development out of Indonesia, where the 
Prime Minister has asked the former general of the army or 
whatever the armed forces, Mr. Wiranto, to step down, and he 
has refused to do so. What are the implications, do you think, 
in the future for this as far as Indonesia's own stability will 
be for the future? I say this because I think it will also have 
real serious implications on the stability with East Timor. I 
would just like to ask you gentlemen for your reactions to 
that.
    Mr. Roth. Let me first say that this is a work in progress, 
the story is not over, and that, as you know, President Wahid 
is due back on Sunday. It is expected at that point that there 
will be some resolution of this issue. Most people are betting 
that General Wiranto will step down.
    I will have more to say on this subject when we have the 
second hearing next week, but just to answer your question 
head-on, it is very clear what the position of the United 
States is. We believe strongly in the importance of civilian 
supremacy. This was a point which Secretary Cohen made on his 
trip to the previous government, pointing out that the military 
had to abide by the results of elections and not attempt to 
take matters into its own hands.
    Here you have the president of the country, exercising his 
right to determine who is going to be in his cabinet. So for us 
this is a question of civilian supremacy. The exact mechanism 
for working it out is something that I leave to the 
Indonesians, but the U.S. position is clear.
    Mr. Faleomavaega. I appreciate your response to that, but I 
thought we had a similar problem also with Cambodia where there 
was a coup taken, and Mr. Hun Sen is still around. What will be 
our policy toward a military coup, if Wiranto does decide--I 
know I am being hypothetical, but will our position be just to 
say, ``Well, you shouldn't do that,'' or will there be any 
strong position taken by our government, if there will be a 
military coup on the part of Wiranto, on this issue?
    Mr. Roth. Let me first say that we are not seeing 
indications to suggest a coup will take place, in terms of the 
unit that would have to participate. Futher more key generals 
in Indonesia have made statements expressing their support for 
the government, including the head of their military forces on 
the uniformed side. I don't want to perpetuate the story that 
the United States has any information suggesting a coup is 
imminent. We don't.
    Nevertheless, if you ask me the question, what would be the 
policy if there is a coup, Ambassador Holbrooke has already 
spoken authoritatively for the U.S. Government on this several 
weeks ago. You have undoubtedly seen his statement where he 
indicated it would have very dramatic and severe consequences; 
that the United States supports the democratic government, and 
there would be many consequences if that was overthrown by 
military force.
    I think, and I hope, that the Indonesian military has 
learned a lesson. They were warned there would be consequences 
if they did not abide by the outcome in East Timor. They 
didn't. There were major consequences for them, including a 
suspension of the military relationship with the United States 
and other aspects of international opprobrium. There would be 
similar consequences, even stronger ones, in the event of a 
coup.
    But again, the main message I want to say is we do not have 
information suggesting that any kind of coup situation is 
imminent.
    Mr. Faleomavaega. I notice in your statement also, Mr. 
Secretary, that we plan to provide about $300 million in aid 
for a 3-year period. What kind of assistance is Portugal 
planning to give to East Timor for its reconstruction?
    Mr. Roth. Considerable. One of the hard things in 
explaining or even evaluating these aid programs is, a lot of 
the contributions are in kind rather than in dollars, and so it 
becomes more difficult if you are providing a hospital ship to 
service individuals or if you are sending a unit to help 
administer something. It is more difficult than just cash 
transfer. If you would like, I would be happy to give you more 
detail than this for the record on what Portugal----
    Mr. Faleomavaega. If you would, please.
    Mr. Roth. Yes, certainly.
    Mr. Faleomavaega. Mr. Chairman, may I have one more 
question, or am I----
    Mr. Bereuter. We can come back to you, but if it is a brief 
one we can go ahead and take it now.
    Mr. Faleomavaega. I just wanted to follow, Mr. Secretary, 
and Mr. Welch also, the question and the concerns expressed by 
my good friend from California, Mr. Lantos. Japan is the 
largest investor in all of Southeast Asia. No other country 
makes more money out of these Southeast Asian countries than 
Japan. I do want to express that similar concern.
    If they want to be top of the heap, be a permanent Member 
of the Security Council like Germany, there should be added 
responsibility given to them, especially when it comes to--it 
is very easy to give money. I mean, anybody can make money. But 
when your sons and daughters come back in body bags, that is a 
very difficult situation, what our country has had to go 
through.
    Do you think that, in adding to what Congressman Lantos has 
said earlier, is Japan offering assistance to East Timor for 
reconstruction?
    Mr. Roth. Japan is offering very substantial assistance to 
East Timor for reconstruction.
    Mr. Faleomavaega. How much?
    Mr. Roth. I could fish out the numbers but I----
    Mr. Faleomavaega. That is all right. You can just provide 
it for the record.
    Mr. Roth. They are probably the largest or the second 
largest donor. It is a very large, significant program.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Bereuter. Thank you.
    The Chair will exercise discretion and grant the gentleman 
from California, Mr. Bilbray, an opportunity to engage in 
questions here. It is, after all, his Committee hearing room, 
and half his relatives are Australian so he has taken a great 
interest in the East Timor issue. The gentleman from 
California, Mr. Bilbray.
    Mr. Bilbray. Yes, Mr. Chairman. I appreciate the chance to 
participate. For those of us in California, we have always been 
frustrated with the tradition in the United States of--America 
has a bad habit of looking East in foreign policy all too 
often. I guess it is a tradition that goes all the way back to 
our Founding Fathers. But obviously there was a lot of us that 
had major concerns of what was going on in this part of the 
world as we were looking at Eastern Europe and were so obsessed 
with Eastern Europe, and there was a concern about what was 
happening in East Timor.
    In fact, my relatives in East Timor and the Ambassador and 
the Prime Minister of Australia kept hitting me up as a Member 
of Congress about, ``Where are you? Where are you coming from? 
Why isn't there anything being talked about this?'' And I am 
sure that my colleague from Samoa would say you get the same 
thing. It is like, hey, guys, you know there is something going 
on out here, and I guess as much the media should be blamed for 
the lack of focus on this as anything.
    My question gets around, and really I want to reinforce my 
colleague from California's comment about the fact of trying to 
get across the message to the economic powerhouses of the 
world, that with the economic opportunities and prosperity 
comes the responsibilities, and with those rights the 
responsibilities need to be borne. I think Japan is one that 
quite clearly needs to understand that part of this brave new 
world that exists out there, if I may use that term--it is not 
very politically correct, but it is--is that if you want to be 
a world leader and participate economically, then you have a 
political and cultural and social responsibility to participate 
in a lot of fields.
    The $500 million that you were talking about over 3 years, 
that is compared to what kind of contribution have we seen 
from--Japan has matched that pretty close, or how close have 
they come to it?
    Mr. Roth. The $500 million was the total contribution of 
all the countries and international organizations that attended 
the pledging conference. It is an exceedingly complex figure to 
unravel because a lot of countries included what they were 
already giving to East Timor, please future contributions, plus 
in-kind contributions, plus contributions to two international 
trust funds, one for the expenses of the U.N. operation, the 
UNTAET trust fund, the other for the World Bank trust fund, 
which is the coordinating mechanism for development.
    So trying to sort it out in a very simple fashion for you 
is not that easy. The $500 million figure includes everyone. 
That includes Japan, Australia, Portugal, U.S., and all the 
other donors. By the way, that is roughly in line with what we 
think the needs are.
    Mr. Bilbray. Yes, and I would just like to remind all of 
us, I guess we forget about that, is that in the South Pacific, 
United States, Australia and New Zealand have placed massive 
amounts of resources into their protectorates, taken on a 
responsibility that the rest of the world community has not 
taken on in a lot of ways. I think that too often when we see 
this, we forget that Australia and New Zealand are very much, 
for such small countries, very much committed into cooperating 
with the small island communities. They are trying to protect, 
trying to participate and get involved with it. Our involvement 
with our released protectorates, our newly created independent 
island nations out there, we still have participation out 
there.
    My constituency is just saying, are we paying our fair 
share? I will just say this, and I have said it before, and I 
have said it on the House floor: If it wasn't for Australia and 
the pan-Asian countries stepping forward, we probably would 
have been in this Catch-22 of going in and doing it for them 
again. I think that we need to encourage everyone, including 
the Japanese, to bear their fair share.
    I would say this to my colleagues who are looking at 
Europe: I would only ask NATO, look at what Australia has done 
and say, how could a little country like this make such an 
effort, and you guys constantly be looking at us to do it? I 
guess the answer is, is we will do it. We will get in there and 
do it for them.
    Is it really beneficial for us in the long run, and for 
places like East Timor, to have the United States always be the 
one who goes in and be the lead group? I guess that is a 
rhetorical question, because I think it is great having 
subregional participation like we are seeing in East Timor.
    Would you like to comment on this as being a prototype for 
the future? Not just in Asia and Europe. I am talking sub-
Saharan Africa and South America, too.
    Mr. Welch. I think as a general matter, wherever we can 
find capable, determined regional leadership, that helps in any 
multilateral effort.
    Now that at least three Members of the Subcommittee have 
raised this question of Japan, I would note that Ambassador 
Holbrooke will be testifying on another peacekeeping issue to 
the Committee next week. He is intending to visit Japan in the 
not too distant future. I hope you will communicate the same 
message to him, and I will do so myself, about your concern in 
this area, because it is where both the responsibility to pay 
and the capacity to pay meet up, is in their interest in 
playing a global role such as by permanency on the Security 
Council.
    Mr. Bilbray. See, my concern is that we need to be 
proactive, Mr. Chairman, and I will close with this statement. 
We need to be proactive and send a signal around the world that 
we are willing to participate and be a supportive nation 
anywhere in the world, but that we no longer should be looked 
at as being the primary source of relief everywhere in the 
world.
    I think that that message needs to be sent, like sub-
Saharan Africa, we need to be proactive and communicate in sub-
Saharan Africa that they need to get their act together. We 
will help them, we will participate with them, but the days of 
doing it for them, need to come to an end. We have to teach 
them how to fish rather than keep giving them fish, and I think 
that East Timor has been an example we should use as a 
prototype.
    I yield back, Mr. Chairman.
    Mr. Bereuter. Thank you, Mr. Bilbray.
    We have been joined by Chairman Ben Gilman and Senator 
Feingold. Welcome, gentlemen. I will recognize you under the 5-
minute rule in that order. Chairman Gilman?
    Mr. Gilman. Thank you, Mr. Chairman, and I will be brief. I 
want to thank our distinguished Chairman of the Asia and 
Pacific Subcommittee, Mr. Bereuter, for holding what I consider 
a very timely hearing today, and for his diligent attention to 
the problems in Indonesia and East Timor. I also want to 
welcome to the House our former colleague, Senator Craig 
Thomas, and his colleague, Senator Feingold from the East Asian 
and Pacific Subcommittee of the Senate Foreign Relations 
Committee. We welcome them as well.
    Although the situation in East Timor is stabilizing, it is 
obvious that much is left to be done. First, the refugee 
repatriation process must be completed expeditiously and 
safely. There are still a substantive number of refugees who 
still remain in West Timor and want to return home.
    I am pleased that our former staff Member, Stanley Roth, 
has now gone up to higher levels and is keeping an eye on all 
of this, and we welcome him along with Mr. Welch.
    Second, the remaining militia elements must be controlled 
and ultimately disbanded, and Indonesia is going to have to 
dissolve these militia groups which are crossing the border 
from West Timor into East Timor, and I hope we can find a way 
to do that.
    Third, all those responsible for the violence in East Timor 
must be held accountable for their actions and eventually 
brought to justice. We are all anxious to see the report of the 
Indonesian National Commission on Human Rights, and we call 
upon the government of Indonesia to take action on the findings 
and make that report public as soon as practicable.
    In that regard, former armed forces chief General Wiranto 
should step down from his government post and account for his 
actions in the aftermath of the referendum on independence in 
East Timor last year. His resignation as well would send an 
important signal to others that the military must extricate 
itself from Indonesian political life and return to the 
barracks and provide civilian control.
    Fourth, the United States and the international community 
should recognize the challenging transition that is now 
underway in East Timor and extend a helping hand to assist that 
important transformation. Our Nation has a key role to play in 
the democratization and reconstruction of this new island 
nation.
    Last, I want to thank the forces of INTERFET, but 
especially the Australians, who played a key role in its 
deployment and the cessation of violence in East Timor. I also 
want to commend our brave American forces who, half a world 
away from home, supported this historic transition to an 
interim U.S. stewardship.
    We look forward to free and fair elections at an 
appropriate time in the future in East Timor, and wish the U.N. 
Transitional Administration for East Timor and the East 
Timorese people the best as they undertake this unprecedented 
journey.
    Mr. Chairman, if I have a moment, I would like to ask a 
question. Thank you, Mr. Chairman.
    When Bishop Carlos Belo, a 1996 Noble Peace Laureate, has 
called for an international tribunal to bring to justice those 
who perpetrated violence in East Timor. I would like to ask our 
witnesses, what is our position on such a proposal, and what 
has been the Indonesian government's response to calls for such 
an international tribunal? The international community's 
experience with such tribunals is, to be kind, uneven. Are 
there more appropriate methods to bring to justice those who 
planned the violence in East Timor? Mr. Roth?
    Mr. Roth. First, let me say that I think in terms of your 
opening statement I could basically say I agree. I made many of 
the same points in my testimony, only not as well, but I think 
I see no conceptual differences or nuance differences in 
anything you have said and the Administration's positions.
    In terms of your specific question, the position of the 
administration is that at this point we would like to give the 
Indonesian domestic process on the commission of inquiry a 
chance to play out. I have detailed previously that this 
Indonesian press has had a very credible start; that there was 
a significant investigation; that a number of high level 
individuals, including prominent generals, were named, also the 
governor of the province and the heads of key militia groups. 
It was a very credible report.
    But I also stressed that this was the beginning of a 
process, not the end of the process, and that we in the 
administration do not consider the box checked simply by the 
report. It now goes to the attorney general, who has 90 days to 
make recommendations for indictment and prosecution. Then they 
have to have trials, and then they have to have convictions.
    We would like to see a situation where Indonesia is capable 
of getting justice and accountability in its own right. That is 
the position of the Indonesian government. ``Let us do it 
ourselves. This is something we need to do to show that 
Indonesia has changed.'' But we have made it very clear that 
until the process has played out, until we see the end result, 
we are not prepared to say that we are opposed to any 
international effort or that there won't be an international 
effort. We are rather saying, ``Do the job right, and if you do 
the job right, then there won't have to be an international 
effort.''
    Mr. Gilman. Just a quick followup. At a recent seminar in 
Washington hosted by the U.S. Institute for Peace, Indonesian 
Attorney General Marzuki and other senior officials discussed 
truth and reconciliation commissions in South Africa and in 
Latin America. Would we be supportive of the establishment of 
such a commission in Indonesia?
    Mr. Roth. This is an Indonesian government decision. If 
they decide to establish such a commission, we will be 
supportive of it.
    Mr. Gilman. Thank you. Thank you, Mr. Chairman.
    Mr. Bereuter. Thank you, Mr. Chairman. We appreciate you 
pursuing those questions.
    Now we recognize the gentleman from Wisconsin, Senator 
Feingold, for questions that he might have.
    Senator Feingold. Thank you, Mr. Chairman. I apologize for 
being late, but in the 10 minutes that I have been here, I have 
already heard more that I agree with than I sometimes hear in 
the Senate in a whole day, and that certainly does not apply to 
Chairman Thomas.
    But let me just say, first of all, thanks to Chairman 
Bereuter and Chairman Thomas for scheduling the hearing. I 
certainly agree with Chairman Gilman's comment about his idea 
for General Wiranto's career future. I think that is an 
excellent suggestion. I also want to say that I agree with much 
of what Congressman Bilbray was saying.
    One of the reasons I voted against the Kosovo operation and 
the Bosnia operation, as much as I wanted to support it and the 
administration policies, I did not feel that the European 
nations were doing as much as they might have to take the lead 
in that situation. What I thought was impressive and exciting 
about the East Timor situation was the Australian commitment, 
and I want to take this opportunity to publicly commend the 
people of Australia, the government of Australia, the military 
of Australia, for what they did in that situation.
    Let me just say, as you go forward with the hearing, if I 
heard correctly, I believe Ambassador Holbrooke will be before 
the Committee. When he speaks to you about the Congo operation, 
I want folks to notice, if they could, that that fits in with 
what Congressman Bilbray was saying.
    It is an African-led initiative, where specifically no 
American troops are being requested. This in the model of 
people in the region saying they want to take the lead, and I 
very much concur with those remarks that I think can be the 
basis for some bipartisan agreement about the kind of 
commitments that we make as a country in the future.
    But I am especially pleased that the Senate and House 
Committees with jurisdiction over U.S. policy in East Asia have 
again taken the opportunity to convene a joint hearing on the 
important issue of the future of East Timor. As the people of 
East Timor start down the road toward independence, we should 
focus our attention on two important issues: accountability for 
the past and action for the future.
    The international community should join the people of East 
Timor in embracing their transition to independence, and I 
really do welcome the day when East Timor is truly independent 
and our policy toward that new country is not considered only 
in the context of our policy toward Indonesia. Of course the 
two will always be interrelated, but this is an important step 
forward. East Timor, as Ambassador Holbrooke likes to say, is 
the first new nation of the new millennium. It should be 
treated in that way, and our conversations and our efforts with 
regard to it should not always be simply with regard to its 
position vis-a-vis Indonesia.
    I know many of the things that I was interested in, Mr. 
Chairman, have already been asked, so I just have two brief 
questions. One is for both Mr. Roth and Mr. Welch. One of the 
recommendations made in the report of the International 
Commission of Inquiry on East Timor focuses on establishing 
procedures for assisting survivors, and I will just quote:
    ``A clear-cut policy should be established for official 
custody of remains, their return to families, and the support 
families can expect during this process. Those involved in 
interviewing survivors should be trained in supportive and 
sensitive techniques for doing so.''
    As we all know, almost every East Timorese citizen has been 
touched by the violence that has scarred that territory over 
the past year, and I commend the Timorese for their courage in 
this horrible situation. I would ask, what is the United States 
doing to ensure that there is adequate counseling and other 
appropriate care for the East Timorese people as they seek to 
rebuild their lives and their country? Start with Secretary 
Roth.
    Mr. Roth. I don't know. This is not something I have 
focused on. I would rather get you an answer for the record 
than make it up.
    Senator Feingold. Secretary Welch?
    Mr. Welch. Get you an answer for the record.
    Senator Feingold. Both of you? OK. I look forward to that.
    I know that the administration is seeking $18 million to 
support ongoing bilateral and multilateral efforts in East 
Timor, but I notice that the ESF request for East Timor is $15 
million less than the 2000 estimate of $25 million. Would you 
speak to the priorities that our assistance will focus on East 
Timor? Then, given the vast needs of the territory, where 
rampaging militias wiped out virtually all of the 
infrastructure, would you please explain why would this 
reduction be appropriate, given the needs?
    Mr. Roth. I am puzzled by the numbers. I am not aware of 
any reduction in aid to East Timor, only increases. There is 
the $25 million that the Congress earmarked, as you know, to 
ESF. You had a lot to do with that. On top of that, there is 
money that is going to be made available, $8.5 million, I 
mentioned in my statement, for paying the salaries of civilian 
police, and then there will be some additional sums that will 
be provided for police functions and the like.
    I indicated before you arrived that we are still in the 
last phases of consultation on spending of the $25 million, and 
so I can't announce it today. I hope I can announce by next 
week exactly how we are going to break it down, but I did say 
that the overwhelming majority of the money is going to be for 
AID and it is going to go on the development side, and be for 
precisely the types of things you have talked about.
    Rather than going in many different directions, the focus 
is to try to get as much money as possible for poverty 
alleviation and development in East Timor. I will be able, as 
soon as we finish the consultation process, to give you an 
exact answer. There is no reason to withhold that from you.
    Senator Feingold. I thank you very much, and I thank the 
Chairs.
    Mr. Bereuter. I thank you, Senator.
    Senator Thomas, do you have any concluding remarks for this 
panel?
    Senator Thomas. No, sir. Thank you.
    Mr. Bereuter. Thank you.
    I would just say I heard numerous commendatory comments 
about Australia here, and I think in general that is shared by 
Members of Congress and the American people. In fact, I don't 
remember so many positive comments about another country since 
the Canadians helped us rescue hostages, and it is well 
deserved.
    Finally, let me say that in today's paper I noticed an 
indication that a ``notorious East Timorese military leader'' 
suspected of being involved in massacres, leading attacks on 
Australian peacekeeping soldiers, has been arrested, and the 
Indonesian government arrested him. Do we expect any additional 
arrests soon? How is it that the U.N. can call for this 
military leader to be extradited to East Timor? There is no 
judicial system in East Timor.
    Mr. Roth. I asked the same question this morning when I saw 
the press story. Presumably it means that the U.N. would have 
to do something in terms of dealing with the person from a 
judicial perspective, but I am waiting for a real legal answer 
rather than a common sense answer like that.
    Mr. Bereuter. Share it with us.
    Mr. Roth. First of all, though, let me say that with all 
the well-deserved praise of Australia today, I hope we won't 
forget the many other countries that also participated. Don't 
forget that we had a deputy Thai commander, which was an 
extraordinary step, as well as a Thai detachment. We had a 
large Filipino detachment. We have had a Korean detachment.
    So there is a lot of Asian participation and a number of 
other countries outside the region, and now we have a Filipino 
taking over from the Australian as commander. So I completely 
agree with everything wonderful that has been said about 
Australia, but I would just like to add some praise for some of 
the other countries.
    Mr. Bereuter. So noted, and I think that is appropriate you 
call that again to our attention.
    Mr. Roth. Second, on the specific incident, what is 
significant about this arrest is, one of the only negative 
developments on the security side recently has been the fact 
that in the enclave, Oecusi-Ambeno, that there have been 
several recent incidents, violations of that border and threats 
to the security.
    The militia leader arrested was specifically linked to that 
violence, and it was a response to the United Nations saying to 
the Indonesians, ``This is unacceptable,'' that the security of 
the enclave is just as inviolate as the security of the rest of 
the border between East Timor and West Timor. So they took a 
step by arresting this individual, who was found, apparently, 
according to the press, with some arms.
    I have no specific information about whether there are 
plans to arrest other militia leaders, but I did note before 
that the Indonesian report on accountability did mention 
several of the militia leaders, so I think there is going to be 
an effort to have some accountability for that.
    Mr. Bereuter. Thank you. I noted Senator Feingold's 
comments about budgetary questions. I have no doubt that the 
informal caucus here on East Timor will take care, if the 
administration doesn't, of the funds.
    But I also noted that there are not the funds--the funds 
are short in the administration's budget with respect to what 
the assessment team said about Indonesia itself. I would just 
ask the State Department to focus a little more attention on 
Asia. When it comes to budgetary questions, Asia shouldn't be 
neglected.
    I would now expect we would thank you gentlemen for. Mr. 
Welch?
    Mr. Welch. If I may interject, of course Mr. Roth will take 
back your concern about focus on assistance, but if I might say 
something about another form of funding that is still pending, 
and that is with respect to our peacekeeping assessments in 
support of the United Nations effort in East Timor.
    Mr. Chairman, we have a reprogramming request that has been 
submitted to the Congress for a significant sum of moneys in 
this regard. We have now received a bill from the United 
Nations for East Timor which we cannot pay. We can't pay it 
because we haven't had action on the reprogramming request. 
That is not a problem in the House; it is a problem on the 
Senate side. Ambassador Holbrooke has raised this with the 
appropriate people on the Senate side. I hope that will be 
clarified and allowed to move through.
    Mr. Bereuter. Thank you very much. We are going to have the 
second panel now, and Chairman Thomas, Senator Thomas, will 
conduct the hearing for that portion.
    Senator Thomas. [Presiding.] I thank the gentleman. We 
appreciate it very much.
    The next panel, as has already been introduced, is Charles 
Costello, Director for Democracy Programs, the Carter Center; 
and Dr. Andrew MacIntyre, associate dean, Graduate School of 
International Relations and Pacific Studies, University of 
California. Welcome, gentlemen. Glad to have you here. Yours 
appears at the top of the list, Mr. Costello, if you would care 
to begin.

   STATEMENT OF CHARLES E. COSTELLO, DIRECTOR FOR DEMOCRACY 
                    PROGRAMS, CARTER CENTER

    Mr. Costello. Thank you. Mr. Chairman, thank you for the 
opportunity to testify today about East Timor's future. I have 
submitted a longer written statement which I will summarize 
briefly. I also have a short document describing the Carter 
Center's actual observation of the public consultation process, 
the referendum balloting, and our findings, and I ask your 
permission to include that in the record as well.
    Senator Thomas. Without objection.
    [The information referred to appears in the appendix.]
    Mr. Costello. I led the Carter Center's observation mission 
to East Timor in August 1999, a mission which had generous 
support from the U.S. Agency for International Development and 
the State Department, with help, personal help, from Assistant 
Secretary Roth, and we received some support from Portugal for 
that mission as well.
    I personally witnessed the incredible determination of the 
East Timorese people to express their will peacefully at the 
ballot box in the face of serious intimidation and violence 
from the Indonesian government and military, mainly through 
their surrogates, the militias. The people literally came 
streaming out of the mountains on foot at dawn on August 30th, 
and most voting was over by noontime. More than 98 percent of 
registered voters turned out, with 78.5 percent favoring 
independence.
    The rest of the story is well known. It is ultimately a 
happy story, thanks especially to Australia and the United 
Nations, and East Timor by no means should be thought of as a 
disaster in spite of the suffering the East Timorese people 
have had to endure to achieve nationhood. But independence will 
be a hollow victory indeed if the transition over the next 2 to 
3 years does not lead to a democratic political system in East 
Timor. Fortunately, prominent East Timorese leaders such as 
Alexander Xanana Gusmao, Jose Ramos-Horta, and Bishop Belo all 
proclaim their commitment to democratic values.
    If there is one thing we have learned in the last 20 years 
about political transitions, as part of the so-called 
democratic wave in the ex-communist world and elsewhere, it is 
that these countries need help in building their new governance 
structures and civic institutions just as much as they need 
help with their economies and physical infrastructure. Truly 
democratic societies, ``free countries'' we might call them, 
are only built up over time, and sustainable democratic 
political systems depend on a foundation of democratic values 
embedded in a nation's culture.
    Neither public administration training for new civil 
servants nor a single free election alone will deliver 
democracy to East Timor. Long-term programs of democratic 
development assistance are needed as badly as any for economic 
recovery or infrastructure rehabilitation. Democracy, like most 
anything else, is learned by doing it, and unfortunately the 
East Timorese under Portuguese or Indonesian occupation have 
had precious little practice.
    It is our view that support to civil society, primarily 
nongovernmental organizations, for the strengthening of civic 
institutions that will work alongside the U.N. Transitional 
Authority for East Timor and later the elected East Timorese 
government, deserves the highest priority. Be it assistance to 
fledgling political parties, the independent media, or to NGO's 
that participate actively in the public policy arena, this is 
the area where U.S. bilateral assistance can play a vital role.
    This is also where the U.S. has a comparative advantage, 
based on the experience gained by American organizations 
working with strong bipartisan support from the Congress for 
democratic development around the world over the last 20 years. 
A vibrant civil society is the basic underpinning and guarantor 
of a democratic society and strong political institutions, as 
de Toqueville brilliantly observed about our own country more 
than 200 years ago.
    Civil education in the broadest sense, through 
participation in public life by private groups acting freely 
and peacefully, will be essential to building a successful 
democratic future for East Timor. Good governance doesn't just 
happen; you have to work at it. It is as dependent upon civil 
society actors and organizations as it is upon elected public 
leaders. Freedom rests with self-government, and self-
government rests first and foremost with the people. I urge you 
to give East Timor that kind of support. They have earned it. 
Thank you.
    [The prepared statement of Mr. Costello appears in the 
appendix.]
    Senator Thomas. Mr. MacIntyre?

STATEMENT OF ANDREW MacINTYRE, ASSOCIATE DEAN, GRADUATE SCHOOL 
 OF INTERNATIONAL RELATIONS AND PACIFIC STUDIES, UNIVERSITY OF 
                     CALIFORNIA, SAN DIEGO

    Dr. MacIntyre. Thank you, Mr. Chairman. I hope I can bring 
some fresh thoughts on this discussion here, coming from well 
outside the beltway. I don't want to go over the points and 
themes that have come up in the earlier discussion, so let me 
just try and hit a few main points and then we can open things 
up to questioning.
    We all have a very clear sense of just how horrible the 
situation has been in East Timor in the not too distant past, 
but I guess the first point that I would like to underscore is 
just how extraordinarily well things have gone in the past 4 
months. I think they have gone way better than anyone would 
dare to have expected back in September or October last year.
    I mean, if you just think what has gone on, we have already 
heard how security has been now assured in the territory, 
thanks to the INTERFET forces. We have got a U.N. Transitional 
Administration now in place. The ADB, the Asian Development 
Bank, and the World Bank are now gearing up to get moving. We 
have got the National Council for Timorese Resistance which is 
functioning as an umbrella political organization in Timor, 
moving to play a very constructive role in getting Timor's 
political elite thinking and talking about issues. We have got 
the National Consultative Council, which is a joint body set up 
by the U.N. including Timorese leaders, which is actually 
getting moving now on some serious decisions.
    This is all pretty significant progress, and I don't think 
many people would have thought it at all likely in such a short 
timetable. So if point one is, things are actually going better 
than we might have hoped, given how bad they had been, point 
two is, not surprisingly, there is still an enormous task 
ahead, a truly enormous task ahead.
    I think the most immediate priorities are fairly clear, and 
we have heard this from other speakers. There is just urgent 
need now to get the economy moving, particularly in the rural 
sector. That is where a lot of the employment activities are 
going to becoming. Urgent needs to get stable administration 
and governance reestablished through the territory.
    But it the challenges that come a little further out that 
are actually the more interesting ones, and in some ways 
contain potentially more complex matters. I think it is very 
important that people start to think now about getting the 
United Nations out, and that seems an extraordinary thing to 
say since all the attention has been on getting the United 
Nations in. It is clear that East Timor could not have come 
into existence without the United Nations. The United Nations 
is critical to the birth of East Timor.
    But it seems to me that we need to be very careful to avoid 
a situation of a protracted presence of this big, large 
international bureaucracy sitting on a place that has never had 
self-government. Think of metaphors of big ocean liners being 
slow to turn around. I think we need to be giving thought now 
to what the exit strategy is for the United Nations.
    The projections I have seen are for them to leave sometime 
toward the end of 2003. Timorese leaders Xanana Gusmao and 
Ramos-Horta are talking much more in terms of the end of 2002, 
and I think they are right to. I think that the critical issue 
here is, when we look at getting this new democracy up on its 
feet, is for us to be thinking sooner rather than later about 
permitting these people to have self-governance.
    So that is one point that I would like to put up for your 
consideration, because it is not getting much air play in all 
the discussion. I think more broadly about priorities for a 
newly democratic East Timor, perhaps the single most pressing 
international priority is their relationship with Indonesia, 
and one of the big achievements you folks are achieving here in 
setting up two separate discussion sessions is to detach these 
two discussions, and I think that is very constructive.
    But we also need to remember that East Timor's relationship 
with Indonesia will have more bearing on its future than just 
about anything else that happens. It would be very easy for 
Indonesia to create enormous difficulties for East Timor. Now, 
there is no sign that that is what we are looking at. We are 
seeing the military elite, the civilian elite in Jakarta, all 
looking in another direction. We are seeing the militia, what 
remains of them in West Timor, being quite weak. But the fact 
remains that East Timor has to have very careful regard for its 
relationship with Indonesia.
    This is where, I guess, the difficulties start to come, and 
it focuses on the issue of accountability. I think there is 
widespread agreement on the need for accountability on the part 
of the Indonesian armed forces for what has happened in East 
Timor. There is no debate on that. The issue really is how this 
proceeds, and I was very heartened by Secretary Roth's comments 
that the administration's position is to have this proceed 
through Indonesian channels to begin with. I think that is the 
way for us to proceed.
    I think it is important that Timorese leaders themselves, 
Gusmao and Ramos-Horta, are both taking the approach of let's 
put emphasis on truth-telling rather than retribution. But 
there could be difficulties here, and I do think we need to be 
careful that any efforts to bring Indonesian military officers 
to account do not destabilize democracy in Indonesia. Because 
let's not forget the single worst thing that could happen for 
East Timor, the single worst thing that could happen would be a 
collapse of democracy in Indonesia. That would be the most 
worrying scenario. So we are going to have a very delicate 
balancing act in front of us all as we on the one hand want to 
see serious movements toward accountability, but at the same 
time ensuring that this does not fundamentally destabilize the 
situation in Indonesia.
    I had some other points in my written remarks that I won't 
go into here, but which were more to do with the importance for 
East Timor of building links more broadly in the region, so 
that they are not dependent just on the United States, 
Australia, Portugal, for assistance. I think it is going to be 
very important for them to build links to the rest of Southeast 
Asia, to the Association of South East Asian Nations, and in 
particular to the Philippines as the other Catholic democracy 
in the region.
    So let me simply close by hitting I guess two main points 
here. We know how bad this situation has been, and we know that 
the challenges ahead are truly daunting. But let's not lose 
sight of the fact that there has been surprising progress, 
surprising progress in the last 4 months, and let's not lose 
sight of the really quite difficult balancing act that is going 
to be needed in the next several months, in the short-term 
future, as we all seek to see continued progress with nation-
building in Timor and at the same time pursuit of 
accountability and justice for the Indonesian military. Thank 
you.
    [The prepared statement of Dr. MacIntyre appears in the 
appendix.]
    Senator Thomas. Thank you very much, both of you. Very 
insightful.
    Let me go, Dr. MacIntyre, to your last comment. It is going 
to be very difficult to steer the next period of time, however 
long that is, toward accomplishing both the governmental 
establishment as well as the economy. Who do you see taking the 
leadership in that?
    Dr. MacIntyre. I think to begin with the ball is in the 
Indonesian court. Let me make sure I understand your question. 
Taking the leadership, are you referring there to the question 
of accountability or----
    Senator Thomas. No. Let's assume that if everybody walked 
away from East Timor, they would not do very well.
    Dr. MacIntyre. Right.
    Senator Thomas. So who is going to manage this idea of 
putting together a democracy? Is it going to be the U.N.? I 
don't think it is going to be Indonesia is going to break their 
neck, when they are in as much trouble as they are, to be 
working on somebody else's success, do you?
    Dr. MacIntyre. Absolutely not. No, I think the key players 
to begin with will indeed be the U.N. Transitional 
Administration that is there, together with the other main 
developmental agencies, the World Bank and the Asian 
Development Bank. But I suppose the point that I would really 
like to emphasize is, a lot of the discussion so far today has 
all been about what is everyone else in the world going to do, 
what can the United States do?
    That is all fine and important, but I think what we are 
overlooking here is the importance of empowering East Timorese 
themselves, East Timorese themselves, to take control of 
decisions. I think that is critical to things moving ahead.
    Senator Thomas. Mr. Costello, do you see any--you were 
there for the election and you indicate it went well, 
apparently so--do you see any indication of the establishment 
of the elements of democracy? Do you see a constitution? Do you 
see a rule of law? Do you see a structure for some final 
elections to take place?
    Mr. Costello. All of that remains to be done. The transfer 
of authority from the United Nations to an elected East 
Timorese government should occur after free elections have been 
held, with the likelihood of having a constitution in place 
prior to elections, although it could be the other way around, 
with the newly elected Timorese government dealing with its 
constitutional issues.
    But we are of the view that elections too early in that 
process will be counterproductive. That has been learned, a 
lesson learned, I think, in a number of places around the 
world, that a bit of a cooling off period, a concentration on 
some of the other issues, and adequate time to prepare the 
Timorese for their national elections. I mean elections should 
be held off until year 2 or year 3, at about the time that the 
U.N. is ready to hand over administration, although I am 
referring to national elections. I think that early 
establishment of local councils, elected local councils to deal 
with governmental matters at the district level would be indeed 
quite helpful.
    One of the issues with elections at the earliest possible 
date is that it is clear that right now the only organized 
political force is really the CNRT, and in terms of fostering 
pluralism and a multiparty system, early elections would lead, 
as a foregone conclusion, to just them assuming full control of 
the government.
    Senator Thomas. Do either of you know of an example or a 
pattern that has been done by the United Nations, to take a 
country that has never governed themselves into governance in a 
democracy?
    Dr. MacIntyre. No. I don't disagree with anything my 
colleague here has said. I guess the spirit of my remark is, I 
have great fear for the possibility of the U.N. staying three, 
four, 5 years and stifling development. I need to be cautious 
that the burden of my remarks don't sound like I am suggesting 
a mad rush to elections. I completely agree with the spirit of 
the previous comments. I just fear ocean liners that don't turn 
round.
    Senator Thomas. I agree with you. However, there needs to 
be some help. I am not an expert, but I was in Jakarta some 
time ago, a few years ago, and they were seeking to do some 
things but they didn't have a rule of law, for example. They 
had a human rights Committee but they had no way to enforce it. 
So these folks are not very familiar with what it takes to 
cause a democracy to work, and somehow someone has to be 
helpful in that regard.
    Mr. Chairman?
    Mr. Bereuter. [Presiding.] Thank you very much. Gentlemen, 
sincere thanks to you for your contribution here today. I 
appreciate the administration witnesses that we had before us, 
but their answers tend to be more predictable and guarded, and 
so I always look forward more to the second and third panels 
that we have at our hearings.
    Dr. MacIntyre, I want to express my appreciation to you for 
bringing your Australian knowledge and experience and knowledge 
of Southeast Asian island countries to our country. Mr. 
Costello, thank you for the work that you did in early 
difficult days in East Timor.
    I remember when, in fact one of the most unforgettable 
experiences of my life is working as an election observer with 
the Carter Center team and former President Carter in 
Nicaragua, and so I am interested to know what the Carter 
Center's continued role will be in East Timor. Has it been 
decided?
    Mr. Costello. As Director of the Democracy Program, I know 
that I would like to continue work of the sort that I described 
in my statement, concentrating on strengthening of civil 
society. There are a number of organizations, NGO's, in Timor 
that were tolerated during the Indonesian period, others that 
worked in semiclandestine fashion, but now a great number of 
new NGO's that have sprung up but have very little experience 
and training.
    So, along the lines of what I said in my oral statement, I 
think it would be important for us, I would certainly like to 
see us carry forward a program. We have indeed internally 
presented an initial proposal for review, so I hope that we 
will be able to do work like that. So that the constitution-
making process, for example, should be one which includes 
hearings, which includes participation of civic groups, and 
that whole preparation for elections is not simply about the 
machinery of elections but about media, about organization and 
training of political parties, all of the elements that fit 
around your formal government institutions that really sustain 
a democracy.
    Mr. Bereuter. Mr. Costello and Dr. MacIntyre, I ask both of 
you this question, just some assessment of how deep the 
divisions are between those that supported independence and 
those that did not in East Timor, and that implies their 
ability to work together, your commentary on that.
    Dr. MacIntyre. The answer to that is not clear. It depends 
on who we have got in mind. I think there is a portion of the 
population that at least nominally was in favor of integration 
with Indonesia, but did so perhaps out of fear or perhaps 
because they were themselves employed in state bureaucracy or 
in some ways locked into the system. I think a fair portion of 
those people would be quite able to switch sides now, but that 
is clearly not true of everyone.
    There are clearly--we heard about this in the refugee 
camps--it is also true of some Members of the elite that have 
left East Timor and are not in Jakarta or elsewhere in 
Indonesia, who feel they can't go back. So I think it very much 
depends on who we are talking about.
    Mr. Bereuter. Mr. Costello?
    Mr. Costello. Let me add to that, that I don't see that as 
a major problem now, a major obstacle. Obviously the voting 
demonstrated that nearly 8 out of 10 in Timor favor 
independence. Some people who left the country, the majority in 
fact, were driven out as part of this depopulation strategy of 
the Indonesian military.
    But there is a goodly number, and as Secretary Roth said, 
they are not sure but would estimate perhaps half of those who 
are outside of East Timor won't go back. They have in fact 
voted with their feet. They were civil servants who don't want 
to go back. Some of them had links to the militias or to pro-
integration groups. They don't feel comfortable in the new 
Timor.
    So I think that the more dangerous issue in terms of 
democratic development will be something that you saw that 
dates all the way back to 1975, the Timor uprising against 
Portugal, is factionalism on the part of the pro-independence 
groups. There is a certain element of small town politics in 
East Timor, a lot of personal rivalries and old grudges, and if 
those groups start feuding they could really damage the kind of 
basic consensus around their new democratic system that is so 
badly needed.
    Mr. Bereuter. Thank you. Dr. MacIntyre, I would like to end 
with two economic questions for you. First, what is there in 
East Timor that you would expect to be the most likely areas 
for economic activity in the future, economic development?
    Second, there is often discussion about the hope for major 
oil and gas findings in the Timor Gap. Do you think it is 
likely that Australia and Indonesia would renegotiate their 
agreement in that area so that East Timor could in fact have an 
opportunity to benefit from any oil and gas that might be 
discovered in that area?
    Dr. MacIntyre. With regard to the first question, if we 
look in broad terms, what is going to be the main economic 
activity, it is very clear it will be agriculture. Most people 
in East Timor will be engaged in agriculture. That will be the 
basis of the economy.
    Mr. Bereuter. Is coffee one of their crops?
    Dr. MacIntyre. If we look to what is going to give them 
export dollars, that is where coffee comes in, that is where 
oil might come in, and conceivably, given some time and some 
good luck, tourism, et cetera, et cetera. But if we look at the 
basis of the overall economy for the next so long it is going 
to be agriculture, and that is why getting the agricultural 
economy moving again, fertilizer, credits, all those sorts of 
things that are necessary, is so important.
    Your second question, my understanding of the situation is 
that that is indeed what is anticipated, that there will indeed 
be a restructuring of previous agreements to take account of 
what are basically changes in the map now, and that the 
Australians are fully expecting to play ball on that. It is not 
clear to me how Indonesia could resist it. Maybe they could 
drag the chain, but I don't see that as a major issue.
    Mr. Bereuter. I enjoyed visiting the campus where you did 
your study last August.
    I would like now to turn to our colleague from the Commerce 
Committee, representing a part of the San Diego metropolitan 
area, to make inquiries of one of the gentlemen who is from the 
San Diego metropolitan area. You are recognized.
    Mr. Bilbray. Yes. Dr. MacIntyre, I would just like to say 
we have more in common than we would like to admit sometimes, 
right?
    I would just like to compliment both our witnesses. I 
really have to reflect on my colleague from San Diego's comment 
about we should celebrate how well it has gone. Anybody who is 
a betting person probably would have laid money that between 
the time of the election to this day, we would have expected so 
much more social upheaval, so much more problem and so much 
more difficulty for the peacekeeping forces, and we have been 
lucky that way.
    You may disagree with me strongly, but I would say this and 
I will ask you this question. I think that those of us in the 
States may grossly underestimate how much not having the Yanks 
on the ground helped in the process. I think that too often we 
forget as Americans that we really are, an easy target for 
extremists to point fingers at and try to justify actions based 
on the fact that it is the imperialistic Yanks and they are 
moving in, or whatever.
    I think part of the formula we need to learn from East 
Timor is having the Aussies go in and be the higher profile 
took away the extremists, at least to some degree, not that 
they can't hate the Aussies as much as they do Yanks, but it 
takes away some of the tools that extremists use traditionally 
as a way to cause turmoil, to cause violence and whatever, by 
saying, ``Once the Americans move in, you'll never get them 
out, the imperialists.''
    I am just wondering from your comment, is that really that 
much off base? Could that be part of the secret, that we were 
able to have a group of peacemakers who weren't so 
overwhelmingly intimidating and didn't play into the extremist 
lines? Could that be part of the formula that gave us the 
success?
    Dr. MacIntyre. Mr. Bilbray, thanks for the comments. Let me 
come to the first part of your remarks first. I need to be 
careful in underscoring or focusing on the progress that has 
been made in the past 4 months. I don't in any sense want to 
diminish from the horrors of what went previously or the scale 
of the challenge that lies ahead. But I guess I want to 
discourage people from being despairing of the scale of the 
task at hand, because much more that is good has happened than 
I think we would have expected.
    To the second part of your question, I strongly agree with 
you. I think this is a model we should be looking at for U.S. 
foreign policy more broadly. I mean, this is real burden-
sharing in action. This is the thing we want to see.
    It seems to me that the U.S. in fact played a more 
important role in all of this than the burden of the discussion 
has suggested. I think it was important for Australia to know 
where the United States stood on this issue. I think that 
mattered to them in their decision to go in. But in broad terms 
I very much agree with you. This is the model for burden-
sharing that it would be good to see more of.
    Mr. Bilbray. It is funny you say that about where America 
stood on this issue, because like I said before, I was just 
astonished that every time I went back to visit family and 
every time I met with a diplomat, every time I met with a 
Member of parliament, they kept coming up, ``Will you be there 
if we need you in East Timor? Are you willing to go in there 
with ANZAC? What about the repercussions of some kind of claim 
of Europeans moving into an Asian country?''
    There was just an absolute concern that political 
correctness or some kind of race-baiting would scare us away 
from being supportive, and I was glad to see that didn't 
materialize, and it was just interesting for me hearing this, 
and I never heard anything here in D.C. from Americans even 
reciprocating on it. So I was concerned there.
    But getting back to this issue that I want to keep pinging 
on, is the fact that I guess the fact that the Americans were 
not the high profile up front, I guess I would say to those of 
us who are Americans, we forget that we are today what the 
British were in 1774. There is a bit of status at taking a shot 
at an American soldier, just the fact that you are taking a 
shot at an American soldier. I think when you go back and read 
our history, there was a bit of status to the fact that we were 
willing to stand on a village green and actually face off with 
the world' premier military power, and that added status even 
though we fired and ran like hell.
    I leave it with that, but I just think that we need to 
think about the fact that those of us in the States really do 
live insulated from some of the pressures and some of the 
perceptions the rest of the world have of us. Thank you.
    Mr. Bereuter. Thank you very much, Mr. Bilbray. Mr. 
Bilbray, you are welcome anytime you would like to join us on 
an Asia Pacific Subcommittee.
    Gentlemen, thank you very much for your testimony here 
today. We appreciate your contributions, and your entire 
statements will be made a part of our record. Thank you. This 
hearing is adjourned.
    [Whereupon, at 3:32 p.m., the Subcommittees adjourned.]
      
=======================================================================




                            A P P E N D I X

                            Febuary 10, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T7455.001
    
    [GRAPHIC] [TIFF OMITTED] T7455.002
    
    [GRAPHIC] [TIFF OMITTED] T7455.003
    
    [GRAPHIC] [TIFF OMITTED] T7455.004
    
    [GRAPHIC] [TIFF OMITTED] T7455.005
    
    [GRAPHIC] [TIFF OMITTED] T7455.006
    
    [GRAPHIC] [TIFF OMITTED] T7455.007
    
    [GRAPHIC] [TIFF OMITTED] T7455.008
    
    [GRAPHIC] [TIFF OMITTED] T7455.009
    
    [GRAPHIC] [TIFF OMITTED] T7455.010
    
    [GRAPHIC] [TIFF OMITTED] T7455.011
    
    [GRAPHIC] [TIFF OMITTED] T7455.012
    
    [GRAPHIC] [TIFF OMITTED] T7455.013
    
    [GRAPHIC] [TIFF OMITTED] T7455.014
    
    [GRAPHIC] [TIFF OMITTED] T7455.015
    
    [GRAPHIC] [TIFF OMITTED] T7455.016
    
    [GRAPHIC] [TIFF OMITTED] T7455.017
    
    [GRAPHIC] [TIFF OMITTED] T7455.018
    
    [GRAPHIC] [TIFF OMITTED] T7455.019
    
    [GRAPHIC] [TIFF OMITTED] T7455.020
    
    [GRAPHIC] [TIFF OMITTED] T7455.021
    
    [GRAPHIC] [TIFF OMITTED] T7455.022
    
    [GRAPHIC] [TIFF OMITTED] T7455.023
    
    [GRAPHIC] [TIFF OMITTED] T7455.024
    
    [GRAPHIC] [TIFF OMITTED] T7455.025
    
    [GRAPHIC] [TIFF OMITTED] T7455.026
    
    [GRAPHIC] [TIFF OMITTED] T7455.027
    
    [GRAPHIC] [TIFF OMITTED] T7455.028
    
    [GRAPHIC] [TIFF OMITTED] T7455.029
    
    [GRAPHIC] [TIFF OMITTED] T7455.030
    
    [GRAPHIC] [TIFF OMITTED] T7455.031
    
    [GRAPHIC] [TIFF OMITTED] T7455.032
    
    [GRAPHIC] [TIFF OMITTED] T7455.033
    
    [GRAPHIC] [TIFF OMITTED] T7455.034
    
    [GRAPHIC] [TIFF OMITTED] T7455.035
    
    [GRAPHIC] [TIFF OMITTED] T7455.036
    
    [GRAPHIC] [TIFF OMITTED] T7455.037
    
    [GRAPHIC] [TIFF OMITTED] T7455.038
    
    [GRAPHIC] [TIFF OMITTED] T7455.039
    
    [GRAPHIC] [TIFF OMITTED] T7455.040
    
    [GRAPHIC] [TIFF OMITTED] T7455.041
    
    [GRAPHIC] [TIFF OMITTED] T7455.042
    
    [GRAPHIC] [TIFF OMITTED] T7455.043
    
    [GRAPHIC] [TIFF OMITTED] T7455.044
    
    [GRAPHIC] [TIFF OMITTED] T7455.045
    
    [GRAPHIC] [TIFF OMITTED] T7455.046
    
    [GRAPHIC] [TIFF OMITTED] T7455.047
    
    [GRAPHIC] [TIFF OMITTED] T7455.048
    
    [GRAPHIC] [TIFF OMITTED] T7455.049
    
    [GRAPHIC] [TIFF OMITTED] T7455.050
    
    [GRAPHIC] [TIFF OMITTED] T7455.051
    
    [GRAPHIC] [TIFF OMITTED] T7455.052
    
    [GRAPHIC] [TIFF OMITTED] T7455.053
    
    [GRAPHIC] [TIFF OMITTED] T7455.054
    
    [GRAPHIC] [TIFF OMITTED] T7455.055
    
    [GRAPHIC] [TIFF OMITTED] T7455.056
    
    [GRAPHIC] [TIFF OMITTED] T7455.057
    
    [GRAPHIC] [TIFF OMITTED] T7455.058
    
    [GRAPHIC] [TIFF OMITTED] T7455.059
    
    [GRAPHIC] [TIFF OMITTED] T7455.060
    
    [GRAPHIC] [TIFF OMITTED] T7455.061
    
    [GRAPHIC] [TIFF OMITTED] T7455.062
    
    [GRAPHIC] [TIFF OMITTED] T7455.063
    
    [GRAPHIC] [TIFF OMITTED] T7455.064
    
    [GRAPHIC] [TIFF OMITTED] T7455.065
    
    [GRAPHIC] [TIFF OMITTED] T7455.066
    
    [GRAPHIC] [TIFF OMITTED] T7455.069
    
    [GRAPHIC] [TIFF OMITTED] T7455.070
    
    [GRAPHIC] [TIFF OMITTED] T7455.071
    
    [GRAPHIC] [TIFF OMITTED] T7455.072
    
    [GRAPHIC] [TIFF OMITTED] T7455.073
    
    [GRAPHIC] [TIFF OMITTED] T7455.074
    
    [GRAPHIC] [TIFF OMITTED] T7455.075
    
    [GRAPHIC] [TIFF OMITTED] T7455.076
    
    [GRAPHIC] [TIFF OMITTED] T7455.077
    
    [GRAPHIC] [TIFF OMITTED] T7455.078
    
    [GRAPHIC] [TIFF OMITTED] T7455.079
    
    [GRAPHIC] [TIFF OMITTED] T7455.080
    
    [GRAPHIC] [TIFF OMITTED] T7455.081
    
    [GRAPHIC] [TIFF OMITTED] T7455.082
    
    [GRAPHIC] [TIFF OMITTED] T7455.083
    
    [GRAPHIC] [TIFF OMITTED] T7455.084
    
    [GRAPHIC] [TIFF OMITTED] T7455.085
    
    [GRAPHIC] [TIFF OMITTED] T7455.086
    
    [GRAPHIC] [TIFF OMITTED] T7455.087
    
    [GRAPHIC] [TIFF OMITTED] T7455.088
    
    [GRAPHIC] [TIFF OMITTED] T7455.089
    
    [GRAPHIC] [TIFF OMITTED] T7455.090
    
    [GRAPHIC] [TIFF OMITTED] T7455.091
    
    [GRAPHIC] [TIFF OMITTED] T7455.092
    
    [GRAPHIC] [TIFF OMITTED] T7455.093
    
    [GRAPHIC] [TIFF OMITTED] T7455.094
    
    [GRAPHIC] [TIFF OMITTED] T7455.095
    
    [GRAPHIC] [TIFF OMITTED] T7455.096
    
    [GRAPHIC] [TIFF OMITTED] T7455.097
    
    [GRAPHIC] [TIFF OMITTED] T7455.098
    
    [GRAPHIC] [TIFF OMITTED] T7455.099
    
    [GRAPHIC] [TIFF OMITTED] T7455.100
    
    [GRAPHIC] [TIFF OMITTED] T7455.101
    
    [GRAPHIC] [TIFF OMITTED] T7455.102
    
  

                                <greek-d>

</pre></body></html>
